<html>
<title> - THE STATUS OF THE WAR AND POLITICAL DEVELOPMENTS IN IRAQ</title>
<body><pre>[House Hearing, 110 Congress]
[From the U.S. Government Printing Office]


                                     

                         [H.A.S.C. No. 110-143]
 
        THE STATUS OF THE WAR AND POLITICAL DEVELOPMENTS IN IRAQ

                               __________

                      COMMITTEE ON ARMED SERVICES

                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED TENTH CONGRESS

                             SECOND SESSION

                               __________

                              HEARING HELD

                             APRIL 9, 2008

                                     
[GRAPHIC] [TIFF OMITTED] TONGRESS.#13



                  U.S. GOVERNMENT PRINTING OFFICE
45-256                    WASHINGTON : 2009
-----------------------------------------------------------------------
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092104 Mail: Stop IDCC, Washington, DC 20402�090001
                                     
                   HOUSE COMMITTEE ON ARMED SERVICES
                       One Hundred Tenth Congress

                    IKE SKELTON, Missouri, Chairman
JOHN SPRATT, South Carolina          DUNCAN HUNTER, California
SOLOMON P. ORTIZ, Texas              JIM SAXTON, New Jersey
GENE TAYLOR, Mississippi             JOHN M. McHUGH, New York
NEIL ABERCROMBIE, Hawaii             TERRY EVERETT, Alabama
SILVESTRE REYES, Texas               ROSCOE G. BARTLETT, Maryland
VIC SNYDER, Arkansas                 HOWARD P. ``BUCK'' McKEON, 
ADAM SMITH, Washington                   California
LORETTA SANCHEZ, California          MAC THORNBERRY, Texas
MIKE McINTYRE, North Carolina        WALTER B. JONES, North Carolina
ELLEN O. TAUSCHER, California        ROBIN HAYES, North Carolina
ROBERT A. BRADY, Pennsylvania        W. TODD AKIN, Missouri
ROBERT ANDREWS, New Jersey           J. RANDY FORBES, Virginia
SUSAN A. DAVIS, California           JEFF MILLER, Florida
RICK LARSEN, Washington              JOE WILSON, South Carolina
JIM COOPER, Tennessee                FRANK A. LoBIONDO, New Jersey
JIM MARSHALL, Georgia                TOM COLE, Oklahoma
MADELEINE Z. BORDALLO, Guam          ROB BISHOP, Utah
MARK UDALL, Colorado                 MICHAEL TURNER, Ohio
DAN BOREN, Oklahoma                  JOHN KLINE, Minnesota
BRAD ELLSWORTH, Indiana              PHIL GINGREY, Georgia
NANCY BOYDA, Kansas                  MIKE ROGERS, Alabama
PATRICK J. MURPHY, Pennsylvania      TRENT FRANKS, Arizona
HANK JOHNSON, Georgia                BILL SHUSTER, Pennsylvania
CAROL SHEA-PORTER, New Hampshire     THELMA DRAKE, Virginia
JOE COURTNEY, Connecticut            CATHY McMORRIS RODGERS, Washington
DAVID LOEBSACK, Iowa                 K. MICHAEL CONAWAY, Texas
KIRSTEN E. GILLIBRAND, New York      GEOFF DAVIS, Kentucky
JOE SESTAK, Pennsylvania             DOUG LAMBORN, Colorado
GABRIELLE GIFFORDS, Arizona          ROB WITTMAN, Virginia
NIKI TSONGAS, Massachusetts
ELIJAH E. CUMMINGS, Maryland
KENDRICK B. MEEK, Florida
KATHY CASTOR, Florida
                    Erin C. Conaton, Staff Director
                Michael Casey, Professional Staff Member
               Stephanie Sanok, Professional Staff Member
                    Caterina Dutto, Staff Assistant


                            C O N T E N T S

                              ----------                              

                     CHRONOLOGICAL LIST OF HEARINGS
                                  2008

                                                                   Page

Hearing:

Wednesday, April 9, 2008, The Status of the War and Political 
  Developments in Iraq...........................................     1

Appendix:

Wednesday, April 9, 2008.........................................    55
                              ----------                              

                        WEDNESDAY, APRIL 9, 2008
        THE STATUS OF THE WAR AND POLITICAL DEVELOPMENTS IN IRAQ
              STATEMENTS PRESENTED BY MEMBERS OF CONGRESS

Hunter, Hon. Duncan, a Representative from California, Ranking 
  Member, Committee on Armed Services............................     3
Skelton, Hon. Ike, a Representative from Missouri, Chairman, 
  Committee on Armed Services....................................     1

                               WITNESSES

Crocker, Hon. Ambassador Ryan, United States Ambassador to Iraq..    11
Petraeus, Gen. David, USA, Commander, Multi-National Forces, Iraq     5

                                APPENDIX

Prepared Statements:

    Crocker, Hon. Ambassador Ryan................................    78
    Petraeus, Gen. David.........................................    59

Documents Submitted for the Record:

    Charts submitted by Mr. Spratt beginning on page.............    95

Witness Responses to Questions Asked During the Hearing:

    [There were no Questions submitted during the hearing.]

Questions Submitted by Members Post Hearing:

    Mrs. Drake...................................................   103
    Ms. Giffords.................................................   107
    Dr. Gingrey..................................................   101
    Mr. Hayes....................................................   111
    Mr. McIntyre.................................................   111
    Mr. Murphy...................................................   102
    Ms. Tsongas..................................................   110
    Mr. Wittman..................................................   105

        THE STATUS OF THE WAR AND POLITICAL DEVELOPMENTS IN IRAQ

                              ----------                              

                          House of Representatives,
                               Committee on Armed Services,
                          Washington, DC, Wednesday, April 9, 2008.
    The committee met, pursuant to call, at 9 a.m., in room 
2118, Rayburn House Office Building, Hon. Ike Skelton (chairman 
of the committee) presiding.

 OPENING STATEMENT OF HON. IKE SKELTON, A REPRESENTATIVE FROM 
        MISSOURI, CHAIRMAN, COMMITTEE ON ARMED SERVICES

    The Chairman. Today the House Armed Services Committee 
meets in open session for an update on Iraq from two of 
America's finest, General David Petraeus and Ambassador Ryan 
Crocker.
    Gentlemen, we thank you for appearing. I am glad to see you 
both and believe that our Nation is well served by your 
leadership.
    This committee does not forget all the personnel who serve 
valiantly under General Petraeus and Ambassador Crocker and who 
work day and night on our behalf. They and their families have 
sacrificed tremendously in an effort to carry out a most 
challenging mission. Where there has been progress, it is due 
to their efforts, and we thank them.
    We shall now begin this hearing with recalling how we got 
here. Iraq was invaded on incorrect information. The turbulent 
aftermath following the initial victory was not considered 
despite warnings of the aftermath, including two such warnings 
from me. Now we are in our sixth year of attempting to quell 
this horrendous aftermath.
    Preparing for this hearing, I went back and read my opening 
statement for our last hearing with you in September. I think I 
could have delivered the same statement as I did then, which 
means I either repeat myself or things haven't changed that 
much in Iraq.
    One thing I do think worth repeating here is to remind 
members and everyone watching the hearing that all of us, 
everyone, desires to bring the war in Iraq to a close in a way 
that will best preserve our national security in this country. 
We must approach Iraq by considering our overall national 
security. Iraq is clearly an important piece of that puzzle, 
but only one piece.
    Admiral Mullen, the Chairman of Joint Chiefs and General 
Hayden, the director of the Central Intelligence Agency (CIA), 
have both said publicly that the next attack on our homeland 
will likely come from the Afghanistan-Pakistan border where 
Osama bin Laden is hiding. Troops in Iraq or those in units 
recovering from being in Iraq cannot be sent to Afghanistan to 
apprehend bin Laden. Protecting this Nation from direct attack 
is job number one, yet our allocation of forces does not match 
this imperative. Yesterday Senator Warner asked whether our 
efforts in Iraq are making this Nation safer. When looking at 
the needs in Afghanistan, the effort in Iraq, however, is 
important as putting at risk our ability to decisively defeat 
those most likely to attack us.
    Iraq is also preventing us from effectively preparing for 
the next conflict. We have had 12 military contingencies in the 
last 31 years. Some of them major and most of them unexpected. 
The Army would face a steep climb in trying to respond to 
another contingency. Readiness for most nondeployed units has 
fallen to unprecedented levels, and nearly all training is 
focused on counterinsurgency operations. Those contingencies 
have come on average about every five years. We are due for 
another. In my view, we are not doing what we must to prepare.
    Turning back to Iraq itself, we should all recall that the 
surge is just the latest in a line of plans, and we are in our 
sixth year of war in Iraq. We have seen just about everything 
from Secretary Rumsfeld's denial that there was an insurgency 
to Ambassador Bremer's throwing fuel on the fire by firing 
every Baathist and member of the Iraqi army. We tried 
assaulting Fallujah twice. We tried rushing the Iraqi army into 
combat only to watch it fail.
    We tried pretty much everything before we got to trying a 
counterinsurgency doctrine backed by increased forces. That 
worked tactically. Our forces have helped reduce violence. In 
my view, we cannot call the surge a strategic success without 
political reconciliation. The objective of the surge was to 
create the political space for the Iraqis to reconcile. Our 
troops have created that space, but the Iraqis have yet to step 
up. There have been some local gains and some legislative 
accomplishments, but those mostly haven't been implemented, so 
we don't know if those will really help or not. And a 
reconciliation based on a sharing of resources, a guarantee of 
political participation, equal treatment under the law and 
protection from violence, regardless of sect, simply hasn't 
happened.
    The United States has poured billions of dollars into Iraqi 
reconstruction, and yet our senior military leadership 
considers an Iraqi commitment of a mere $300 million for the 
reconstruction as a big deal. This Nation is facing record 
deficits, and the Iraqis have translated their oil revenues 
into budget surpluses rather than effective services. Under 
these circumstances and with a strategic risk to our Nation and 
our military readiness, we and the American people must ask, 
why should we stay in Iraq in large numbers?
    Some of our witnesses want to argue for keeping large 
numbers in Iraq. I hope you can also explain the next strategy. 
The counterinsurgency strategy worked tactically, but the surge 
forces are going home. Political reconciliation hasn't 
happened, and violence has levelled off and may be creeping 
back. So how can we encourage and not force the intransigent 
political leaders of Iraq to forge a real Nation out of the 
base sectarian instincts.
    So what is the new strategy? Last time you were here, 
General, you spoke of speeding up the Baghdad clock while 
putting more time on the Washington clock. You have succeeded 
in putting more time on the Washington clock, but the strategic 
failure is that the Iraqi politicians don't seem to have picked 
up a sense of urgency. In my view, that sense of urgency will 
only come when we take the training wheels off and let the 
Iraqis begin to stand on their own two feet. While we hold them 
up, there is no real incentive for them to find their balance.
    In closing my comments in the September hearing, I quoted 
Tom Friedman, a journalist, saying that he would be convinced 
of progress in Iraq by the various sectarian leaders stepping 
forward, declaring their willingness to work out their 
differences on a set timeline and asking us to stay until they 
do. They hadn't done that by last September, and I don't see a 
lot of change on that front.
    So, ladies and gentlemen, I now turn to my good friend and 
ranking member, Mr. Duncan Hunter, for any comments that he 
might have.

    STATEMENT OF HON. DUNCAN HUNTER, A REPRESENTATIVE FROM 
    CALIFORNIA, RANKING MEMBER, COMMITTEE ON ARMED SERVICES

    Mr. Hunter. Thank you, Mr. Chairman, for holding this 
hearing.
    And gentlemen, I think when I see this team of leaders 
together appearing before us as they did last year, I think of 
the words duty, honor, and country because you represent I 
think great models for young Americans who would go into public 
service, either on the State Department side or on the military 
side. And behind you are lots and lots of family members 
representing all of the thousands of people in the military and 
in foreign service, thousands of family members who haven't 
seen their loved ones for a long time. And I know you have 
endured some big separations, as have your personnel. We want 
to thank you for your service to this country.
    You know, Mr. Chairman, it was 15 months ago when the 
President announced the surge. And even a few days after it had 
been announced, some Members of Congress were declaring failure 
of this increase in American forces going into the country. And 
yet I think by all metrics it has been a success. And I am 
reminded that in Anbar Province where you had by some accounts 
and by statistics the most dangerous of situations, the 
situation is extremely benign. In fact, I have seen Marines 
coming back in large numbers from Anbar Province without combat 
action ribbons for a simple reason: they didn't make contact 
with the enemy because there isn't contact and contention to be 
had at most parts of that province now. And generally the 
violence level has dropped throughout Iraq as a result of the 
surge operation.
    Now, you know, we have looked at this initial foray of the 
Iraqi army undertaken under the leadership of this newly formed 
Iraqi Government in Basra. And that has been described by some 
critics as a failure because they didn't complete all the 
objectives that they undertook.
    Mr. Chairman, I see it exactly the opposite. I see this as 
inevitable and necessary of the engagement on the field of 
combat by the Iraqi military undertaking their own operations. 
And as I understand it, and I hope you would elaborate and 
explain today your evaluation of the performance of the Iraqi 
army, but only with a few enablers being contributed by the 
United States, they undertook their own operations, meaning 
they had to stand on the field of battle. They had to face 
bullets. They had to utilize their own chain of command, their 
own logistics capability and their own battlefield 
effectiveness in this operation.
    And, General, I remember when we had the first battle of 
Fallujah and green Iraqi troops were rushed to that battle to 
participate with Marines in that operation, and the next day, 
those troops did not show up. They weren't trained. They didn't 
have discipline, and they moved out of that battle area very 
quickly and very abruptly. And today, while we see Iraqi forces 
which are standing and fighting, which are exercising that 
chain of command and that logistical capability, and I would 
hope that today you could give us your unvarnished opinion on 
the stand up of the Iraqi military, because, in my estimation, 
a reliable Iraqi military is a key to the United States leaving 
Iraq in victory.
    So I would hope that we would have some detail devoted to 
your evaluation of how they are doing. They have now stood up 
134 battalions. A number of them have been engaged in some 
fairly heavy warfare. Others are located in more benign regions 
of the country and haven't been engaged in extensive 
operations. But I would hope you could give us today your 
testimony and your description and your evaluation of how well 
the Iraqi army is standing up.
    Also, I hope, General, that you will go into the issue of 
desertions. I have seen that one figure was that there was four 
percent desertions in the Basra operations. I would hope you 
could tell us to what extent those were members of the military 
police or to what extent those were members of the Iraqi army, 
so we can get an understanding of, in your estimation, what 
that is attributable to and what kind of a grade you would give 
them on that particular operation.
    Mr. Chairman, there is a lot of dissent as to whether or 
not the Iraqi Government has utilized this space that has been 
given to them by the surge operation and this quelling of 
violence, whether they have utilized that to their best 
advantage in terms of political reforms that will move this 
country down the road.
    I would hope also, Ambassador Crocker, you can give us your 
best evaluation as to how far down the road they have moved, 
whether you think they have made reasonable progress, 
inadequate progress, and what you expect them to do in the 
future, and the extent of engagement that you think we should 
undertake to ensure that they continue to improve.
    Also, I would hope both gentlemen could comment today on 
the extent of Iranian participation in the Iraqi situation, and 
particularly, General Petraeus, with respect to Iran's training 
and equipping of the antigovernment forces in Basra, to what 
extent you think that will now shape the security situation, 
whether Iran is backing off or going in full force with their 
special operations and their intel in trying to train and equip 
and effect the military situation inside Iraq. So if you could 
touch on that, I think that is very important to us.
    So, Mr. Chairman, I think we have before us today two 
outstanding leaders who really represent the best in a model of 
service to this great country. I think they have made enormous 
advances and improvements since this last hearing that we held. 
And I look forward to the hearing today and to learning 
especially your unvarnished take on the standup of the Iraqi 
military apparatus. Thank you very much.
    Thank you, Mr. Chairman.
    The Chairman. Mr. Hunter, thank you.
    Gentlemen, again, we are very, very pleased that you are 
here today and look forward to your testimony.
    General.

    STATEMENT OF GEN. DAVID PETRAEUS, USA, COMMANDER, MULTI-
                     NATIONAL FORCES, IRAQ

    General Petraeus. Mr. Chairman, Congressman Hunter, members 
of the committee, thank you for the opportunity to provide an 
update on the situation in Iraq and to discuss the 
recommendations I recently provided to my chain of command.
    Since Ambassador Crocker and I appeared before you seven 
months ago, there has been significant but uneven security 
progress in Iraq. Levels of violence and civilian deaths have 
been reduced substantially. Al Qaeda, Iraq (AQI) and a number 
of other extremist elements have been dealt serious blows. The 
capabilities of Iraqi security force (ISF) elements have grown, 
and there has been noteworthy involvement of local Iraqis and 
local security.
    Nonetheless, the situation in certain areas is still 
unsatisfactory, and innumerable challenges remain. Moreover as 
events in the past two weeks have reminded us, the progress 
made since last spring is still fragile and reversible. 
Nonetheless, security in Iraq is better than it was when we 
reported to you last September, and it is significantly better 
than it was 15 months ago when Iraq was on the brink of civil 
war and the decision was made to deploy additional U.S. forces 
to Iraq.
    A number of factors have contributed to the progress. First 
has been the impact of increased numbers of coalition and Iraqi 
forces. You are well aware of the U.S. surge. Less recognized 
is that Iraq has also conducted a surge, adding well over 
100,000 additional soldiers and police to its security force 
ranks in 2007 and slowly increasing its capability to deploy 
and employ these forces.
    A second factor has been the employment of coalition and 
Iraqi forces in the conduct of counterinsurgency operations 
deployed together to safeguard the Iraqi people; to pursue al 
Qaeda Iraq; to combat criminals and militia extremists; to 
foster local reconciliation; and to enable political and 
economic progress. Another important factor has been the 
attitudinal shift among certain elements of the Iraqi 
population.
    Since the first Sunni awakening in late 2006, Sunni 
communities in Iraq increasingly have rejected al Qaeda Iraq's 
indiscriminate violence and extremist ideology. Over time, 
awakenings have prompted tens of thousands of Iraqis, some 
former insurgents, to contribute to local security as so-called 
Sons of Iraq (SOI). With their assistance and with relentless 
pursuit of al Qaeda Iraq, the threat posed by AQI, while still 
lethal and substantial, has been reduced significantly.
    The recent flare-up in Basra, southern Iraq, and Baghdad 
underscoring the importance of the ceasefire declared by 
Muqtada al-Sadr last fall, is another factor in the overall 
reduction in violence. Recently, of course, some militia 
elements have become active again. Though a Sadr stand-down 
order resolved the situation to a degree, the flare-up also 
highlighted the destructive role Iran has played in funding, 
training, arming, and directing the so-called special groups 
and generated renewed concern about Iran in the minds of many 
Iraqi leaders. Unchecked, the special groups pose the greatest 
long-term threat to the viability of a democratic Iraq.
    As we look to the future, our tasks together with our Iraqi 
partners will be to build on the progress achieved and to deal 
with the many challenges that remain. I do believe that we can 
do this while continuing the ongoing drawdown of the surge 
forces.
    In September, I described the fundamental nature of the 
conflict in Iraq as a competition among ethnic and sectarian 
communities for power and resources. This competition 
continues, influenced heavily by outside actors, and its 
resolution remains the key to producing long-term stability in 
Iraq. Various elements push Iraq's ethno-sectarian competition 
toward violence. Terrorists, insurgents, militia extremists, 
and criminal gangs all pose significant threats.
    Al Qaeda's senior leaders, who still view Iraq as the 
central front in their global strategy, send funding, 
direction, and foreign fighters to Iraq. Actions by neighboring 
states compound the challenges. Syria has taken some steps to 
reduce the flow of foreign fighters through its territory, but 
not enough to shut down the key network that supports AQI. And 
Iran has fueled the violence in a particularly damaging way 
through its lethal support to the special groups.
    These challenges in recent weeks, violence notwithstanding, 
Iraq's ethno-sectarian competition in many areas is now taking 
place more through debate and less through violence. In fact, 
the recent escalation of violence in Baghdad and southern Iraq 
was dealt with temporarily at least by most parties 
acknowledging that the rational way ahead is political dialogue 
rather than street fighting.
    Though Iraq obviously remains a violent country, we do see 
progress in the security arena. As this chart illustrates, for 
nearly six months security incidents have been at a level not 
seen since early to mid 2005, though the level did spike in 
recent weeks as a result of the violence in Basra and Baghdad 
but has begun to turn down again, though the period ahead will 
be a sensitive one.
    As our primary mission is to help protect the population, 
we closely monitor the number of Iraqi civilians killed due to 
violence. As this chart reflects, civilian deaths have 
decreased over the past year to a level not seen since the 
February 2006 Samarra Mosque bombing that set off the cycle of 
sectarian violence that tore the very fabric of Iraqi society 
in 2006 and early 2007.
    Ethno-sectarian violence is a particular concern in Iraq as 
it is a cancer that continues to spread if left unchecked. As 
the box in the bottom left of this chart shows, the number of 
deaths due to ethno-sectarian violence has fallen since we 
testified last September. A big factor has been the reduction 
of that violence in Baghdad. Some of this decrease is, to be 
sure, due to sectarian hardening of certain Baghdad 
neighborhoods. However, that is only a partial explanation, as 
numerous mixed neighborhoods still exist. In fact, coalition 
and Iraqi forces have focused along the fault lines to reduce 
the violence and enable Sunni and Shi'a leaders to begin the 
long process of healing in their local communities.
    As the next chart shows, even though the number of high-
profile attacks increased in March as al Qaeda lashed out, the 
current level of such attacks remains far below its height a 
year ago. Moreover, as we have helped improve security and 
focused on enemy networks, we have seen a decrease in the 
effectiveness of such attacks. The number of deaths due to 
ethno-sectarian violence in particular, as I noticed, has 
remained relatively low, illustrating the enemies' inability to 
date to reignite this cycle of ethno-sectarian violence.
    The emergence of Iraqi volunteers helping to secure their 
local communities has been an important development. As this 
chart depicts, there are now over 91,000 Sons of Iraq, Shi'a as 
well as Sunni, under contract to help coalition and Iraqi 
forces protect their neighborhoods and secure infrastructure 
and roads. These volunteers have contributed significantly in 
various areas, and the savings and vehicles not lost because of 
reduced violence, not to mention the priceless lives saved, far 
outweigh the cost of their monthly contracts.
    Sons of Iraq have also contributed to the discovery of 
improvised explosive devices (IEDs) and weapons and explosive 
caches. As this next chart shows, in fact, we have already 
found more caches in 2008 than we found in all of 2006. Given 
the importance of the Sons of Iraq, we are working closely with 
the Iraqi Government to transition them into the Iraqi security 
force or other employment. And over 21,000 have already been 
accepted into the police or army or other government jobs. This 
process has been slow, but it is taking place.
    Al Qaeda also recognizes the significance of the Sons of 
Iraq, and al Qaeda Iraq elements have targeted them repeatedly. 
However, these attacks, in addition to al Qaeda Iraq's use of 
women, children and the handicapped as suicide bombers, have 
further alienated AQI from the Iraqi people. And the tenacious 
pursuit of al Qaeda Iraq together with AQI's loss of local 
support in many areas has substantially reduced its capability, 
numbers, and freedom of movement. This chart displays the 
cumulative effect of the effort against AQI and its insurgent 
allies. As you can see, we have reduced considerably the areas 
in which AQI enjoys support and sanctuary, though there clearly 
is more to be done.
    Having noted that progress, al Qaeda Iraq is still capable 
of lethal attacks, and we must maintain relentless pressure on 
the organization, on the networks outside Iraq that support it, 
and on the resource flows that sustain it. This chart lays out 
the comprehensive strategy that we, the Iraqis and our 
interagency and international partners are employing to reduce 
what AQI needs. As you can see, defeating al Qaeda in Iraq 
requires not just actions by our elite counterterrorist forces 
but also major operations by coalition and Iraqi conventional 
forces, a sophisticated intelligence effort, political 
reconciliation, economic and social programs information, 
operations initiatives, diplomatic activity, the employment of 
counterinsurgency principles and detainee operations, and many 
other actions.
    Related to this effort, I applaud Congress's support for 
additional intelligence, surveillance, and reconnaissance 
assets in the upcoming supplemental as Intelligence, 
Surveillance, and Reconnaissnce (ISR) is vital to the success 
of our operations in Iraq and elsewhere. As we combat AQI, we 
must remember that doing so not only reduces a major source of 
instability in Iraq, it also weakens an organization that al 
Qaeda senior leaders view as a tool to spread its influence and 
foment regional instability. Osama bin Laden and Ayman al-
Zawahiri have consistently advocated exploiting the situation 
in Iraq, and we have also seen al Qaeda Iraq involved in 
destabilizing activities in the wider Mideast region.
    Together with the Iraqi Security Forces, we have also 
focused on the special groups. These elements are funded, 
trained, armed and directed by Iran's Quds force with help from 
Lebanese Hezbollah. It was these groups that have launched 
Iranian rockets and mortar rounds at Iraq's seat of government 
in the international zone. Iraqi and coalition leaders have 
repeatedly noted their desire that Iran live up to promises 
made by President Ahmadinejad and other senior Iranian leaders 
to stop their support for the special groups. However, 
nefarious activities by the Quds force have continued, and 
Iraqi leaders now clearly recognize a threat they pose to Iraq. 
We should all watch Iranian actions closely in the weeks and 
months ahead, as they will show the kind of relationship Iran 
wishes to have with its neighbor and the character of future 
Iranian involvement in Iraq.
    We have transferred responsibilities to Iraqi forces as 
their capabilities and the conditions on the ground have 
permitted. Currently, as this chart shows, half of Iraq's 18 
provinces are under provisional Iraqi control. Many of these 
provinces, not just the successful ones in the Kurdish regional 
government area, but also a number of southern provinces, have 
done well. Challenges have emerged in some others, including of 
course Basra. Nonetheless, this process will continue, and we 
expect Anbar and Qadisiyah Provinces to transition in the 
months ahead.
    Iraqi forces have grown significantly since September, and 
over 540,000 individuals now serve in the Iraqi Security 
Forces. The number of combat battalions capable of taking the 
lead in operations, albeit with some coalition support, has 
grown to well over a hundred. These units are bearing an 
increasing share of the burden as evidenced by the fact that 
Iraqi force losses have recently been three times our own. We 
will of course conduct careful after-action reviews with our 
Iraqi partners in the wake of recent operations, as there were 
units and leaders found wanting in some cases, and some of our 
assessments may be downgraded as a result. Nonetheless, the 
performance of many units was solid, especially once they got 
their footing and gained a degree of confidence. And certain 
Iraqi elements proved very capable.
    Underpinning the advances of the past year have been 
improvements in Iraq's security institutions. An increasingly 
robust Iraqi-run training base enabled the Iraqi Security 
Forces to grow by over 133,000 soldiers and police over the 
past 16 months. And the still expanding training base is 
expected to generate an additional 73,000 soldiers and police 
through the rest of 2008.
    Additionally, Iraq's security ministries are steadily 
improving their ability to execute their budgets. As this chart 
shows, in 2007 as in 2006, Iraq security ministries spent more 
on their forces than the United States provided through the 
Iraqi Security Forces Fund (ISFF). We anticipate that Iraq will 
spend over $8 billion on security this year and $11 billion 
next year. And this projection enabled us recently to reduce 
significantly our Iraqi Security Forces Fund request for fiscal 
year 2009 from $5.1 billion to $2.8 billion.
    While improved Iraqi Security Forces are not yet ready to 
defend Iraq or maintain security throughout the country on 
their own. Recent operations in Basra highlight improvements in 
the ability of the Iraqi Security Forces to deploy substantial 
numbers of units, supplies and replacements on very short 
notice. They certainly could not have deployed a division's 
worth of army and police units on such short notice a year ago. 
On the other hand, the recent operations also underscored the 
considerable work to be done in the areas of expeditionary 
logistics, force enablers, staff development and command and 
control.
    We also continue to help Iraq through the U.S. Foreign 
Military Sales Program. As of March 2008, the Iraqi Government 
has purchased over $2 billion worth of equipment and services 
of American origin through the Foreign Military Sales Program 
(FMS). Since September, and with your encouragement of the 
organizations in the FMS process, FMS deliveries have improved.
    While security has improved in many areas and the Iraqi 
Security Forces are shouldering more of the load, the situation 
in Iraq is exceedingly complex and challenging. Iraq could face 
a resurgence of AQI or additional Shi'a groups could violate 
Sadr's ceasefire order. External actors like Iran could stoke 
violence within Iraq. And actions by other neighbors could 
undermine the security situation as well.
    The Commander's Emergency Response Program (CERP), the 
State Department's Quick Response Fund, and the U.S. Agency for 
International Development (USAID) programs enable us to help 
Iran deal with these and other challenges. To that end, I 
respectfully ask that you provide us, by June, the additional 
CERP funds requested by the supplemental.
    Encouragingly, the Iraqi Government recently allocated $300 
million for us to manage as Iraqi CERP to perform projects for 
their people while building their own capacity to do so, 
recognizing our capacity to help them. The Iraqi Government has 
also committed $163 million to gradually assume Sons of Iraq 
contracts; $510 million for small business loans; and $196 
million for a joint training education and reintegration 
program. The Iraqi Government pledges to provide more as they 
execute their budget passed two months ago.
    Nonetheless, it is hugely important to have our resources 
continue, even as Iraqi funding begins to outstrip ours. Last 
month I provided my chain of command recommendations for the 
way ahead in Iraq. During that process I noted the objective of 
retaining and building on our hard-fought security gains while 
we draw down to the pre-surge level of 15 brigade combat teams. 
I emphasize the need to continue work with our Iraqi partners 
to secure the population and to transition responsibilities to 
the Iraqis as quickly as conditions permit but without 
jeopardizing the security gains that have been made.
    As in September, my recommendations are informed by 
operational and strategic considerations. The operational 
considerations include recognition that the military surge has 
achieved progress but that that progress is reversible. Iraqi 
Security Forces have strengthened their capabilities but still 
must grow further. The provincial elections in the fall, 
refugee returns, detainee releases and efforts to resolve 
provincial boundary disputes will be challenging. The 
transition of Sons of Iraq will require time and careful 
monitoring. Withdrawing too many forces too quickly could 
jeopardize the progress of the past year. And performing the 
necessary tasks in Iraq will require sizable conventional 
forces as well as Special Operations forces and advisor teams. 
The strategic considerations include recognition that the 
strain on the U.S. military, especially on its ground forces, 
has been considerable. A number of the security challenges 
inside Iraq are also related to significant regional and global 
threats. And a failed state in Iraq would pose serious 
consequences for the greater fight against al Qaeda, for 
regional stability, for the already existing humanitarian 
crisis in Iraq, and for the effort to counter malign Iranian 
influence.
    After weighing these factors, I recommended to my chain of 
command that we continue the draw down of the surge forces and 
that upon the withdrawal the last surge brigade combat team in 
July, we undertake a 45-day period of consolidation and 
evaluation. At the end of that period, we will assess the 
conditions on the ground and determine where and when we can 
make recommendations for further reductions. This process will 
be continuous with recommendations for further reductions made 
as conditions permit. The approach does not, to be sure, allow 
establishment of a set withdrawal timetable. However, it does 
provide the flexibility those of us on the ground need to 
preserve the still fragile security gains our troopers have 
fought so hard and sacrificed so much to achieve. With this 
approach, the security achievements of 2007 and early 2008 can 
form a foundation for the gradual establishment of sustainable 
security in Iraq.
    This is not only important to the 27 million citizens of 
Iraq, it is also vitally important to those in the Gulf region, 
to the citizens of the United States and to the global 
community. It is clearly in our national interest to help Iraq 
prevent the resurgence of al Qaeda in the heart of the Arab 
world; to help Iraq resist Iranian encroachment on its 
sovereignty; to avoid renewed ethno-sectarian violence that 
could spill over Iraq's borders and make the existing refugee 
crisis even worse; and to enable Iraq to expand its role in the 
regional and global economies.
    In closing, I want to comment briefly on those serving our 
Nation in Iraq. We have asked a great deal of them and of their 
families, and they have made enormous sacrifices. My keen 
personal awareness of the strain on them and on the force as a 
whole has been an important factor in my recommendations. The 
Congress, the executive branch and our fellow citizens have 
done an enormous amount to support our troopers and their loved 
ones, and all of us are grateful for that. Nothing means more 
to those in harm's way than the knowledge that their country 
appreciates their sacrifices and those of their families. 
Indeed, all Americans should take great pride in the men and 
women serving our Nation in Iraq, civilian as well as military, 
and in the courage, determination, resilience, and initiative 
they demonstrate each and every day. It remains the greatest of 
honors to soldier with them. Thank you very much.
    [The prepared statement of General Petraeus can be found in 
the Appendix on page 59.]
    The Chairman. General, I certainly thank you for your 
testimony and for being with us today.
    Ambassador.

   STATEMENT OF HON. AMBASSADOR RYAN CROCKER, UNITED STATES 
                       AMBASSADOR TO IRAQ

    Ambassador Crocker. Mr. Chairman, Congressman Hunter, 
Members of the Committee, it is an honor to appear before you 
today to provide my assessment of political, economic and 
diplomatic developments in Iraq. When General Petraeus and I 
reported to you in September, I gave my considered judgment as 
to whether our goals in Iraq were attainable. Can Iraq develop 
into a united stable country with a democratically elected 
government operating under the rule of law?
    Last September, I said that the cumulative trajectory of 
political, economic and diplomatic developments in Iraq was 
upwards, although the slope of that line was not steep. 
Developments over the past seven months have strengthened my 
sense of a positive trend. Immense challenges remain, and 
progress is uneven and often frustratingly slow, but there is 
progress. Sustaining that progress will require continuing U.S. 
resolve and commitment. What has been achieved is substantial, 
but it is also reversible.
    Five years ago today, the statue of Saddam Hussein was 
toppled in Baghdad. The euphoria of that moment evaporated long 
ago. But as Iraq emerges from the shattering violence of 2006 
and the early part of 2007, there is reason to sustain that 
commitment and the enormous investments we have made both in 
the lives of our young brave men and women and our resources.
    Let me describe the developments upon which I base such a 
judgment. The first is at the national level in the form of 
legislation and the development of Iraq's parliament. In 
September, we were disappointed that Iraq had not yet enacted 
some key pieces of legislation. In the last several months, 
Iraq's parliament has formulated, debated vigorously and, in 
many cases, passed legislation dealing with vital issues of 
reconciliation and nation-building. A pension law extended 
benefits to individuals who had previously been denied them 
because of their service under the former regime. The 
accountability and justice law, de-Baathification reform, 
passed after lengthy and often contentious debate reflecting a 
strengthened spirit of reconciliation as does a far-reaching 
amnesty law. The Provincial Powers Law is a major step forward 
in defining the relationship between the Federal and provincial 
governments. Passage of this legislation requires debate about 
the fundamental nature of the state similar in its complexity 
to our own lengthy and difficult debate over States' rights. 
The Provincial Powers Law also called for provincial elections 
by October 1st of this year, and an electoral law is now under 
discussion that will set the parameters for these elections. 
All major parties have announced their support for elections, 
and these will be a major step forward in Iraq's political 
development, setting the stage for national elections in late 
2009. In January, a vote by the Council of Representatives to 
change the design of the Iraqi flag means the flag now flies in 
all parts of the country for the first time in years. The 
passage of the 2008 budget with record amounts for capital 
expenditures ensures that the Federal and provincial 
governments will have the resources for public spending.
    Mr. Chairman, all of this has been done since September. 
These laws are not perfect, and much depends on their 
implementation, but they are important steps. Also important 
has been the development of Iraq's Council of Representatives 
as a national institution. Last summer, the Council of 
Representatives suffered from persistent and often paralyzing 
disputes over leadership and procedure. Now it is successfully 
grappling with complex issues and producing viable tradeoffs 
and compromised packages. As debates in Iraq's parliament 
become more about how to resolve tough problems in a practical 
way, Iraqi politics have become more fluid. While these 
politics still have a sectarian bent and basis, cross-sectarian 
coalitions have formed around issues, and sectarian political 
groupings, which often were barriers to progress, have become 
more flexible.
    Let me also talk about the intangibles, attitudes among the 
Iraqi people. In 2006 and 2007, many of us understandably 
questioned whether hatred between Iraqis of different sectarian 
backgrounds was so deep that a civil war was inevitable. The 
Sunni awakening movement in al Anbar which so courageously 
confronted al Qaeda continues to keep the peace in the area and 
keep al Qaeda out. Fallujah, once a symbol for violence and 
terror, is now one of Iraq's safest cities. The Shi'a holy 
cities of an-Najaf and Karbala are enjoying security and 
growing prosperity in the wake of popular rejection of 
extremist militia activity. The Shi'a clerical leadership, the 
Marjaiyyah, based in an-Najaf, has played a quiet but important 
role in support of moderation and reconciliation. In Baghdad, 
we can see the Iraqis are not pitted against each other purely 
on the basis of sectarian affiliation. The security 
improvements of the past months have diminished the atmosphere 
of suspicion and allowed for acts of humanity that transcend 
sectarian identities. When I arrived in Baghdad a year ago my 
first visit to a city district was to the predominantly Sunni 
area of Dora. Surge forces were just moving into neighborhoods 
still gripped by al Qaeda. Residents also were being terrorized 
by extremist Shi'a militias. Less than a year later, at the end 
of February, tens of thousands of Shi'a pilgrims walked through 
those streets on the way to Karbala to commemorate the 
martyrdom of Imam Hussein. Sunni residents offered food and 
water as they passed through, and some joined the pilgrimage.
    News from Iraq in recent weeks has been dominated by the 
situation in Basra. Taken as a snapshot with scenes of 
increasing violence and masked gunmen in the streets it is hard 
to see how this situation supports a narrative of progress in 
Iraq. And there is still very much to be done to bring full 
government control to the streets of Basra and eliminate 
entrenched extremist, criminal and militia groups. When viewed 
with a broader lens, however, the Iraqi decision to combat 
these groups in Basra has major significance. First, a Shi'a 
majority government led by Prime Minister Maliki has 
demonstrated its commitment to taking on criminals and 
extremists regardless of sectarian identity. Second, Iraqi 
Security Forces led these operations in Basra and in towns and 
cities throughout the south. British and U.S. elements played 
important roles, but these were supporting roles, as they 
should be. The operation in Basra has also shaken up Iraqi 
politics. The prime minister returned to Baghdad from Basra 
shortly before General Petraeus and I left for Washington, and 
he is confident in his decision and determined to press the 
fight against illegal groups but also determined to take a hard 
look at lessons learned. The efforts of the government against 
extremist militia elements have broad political support as a 
statement April 5th by virtually all of Iraq's main political 
leaders--Sunni, Shi'a and Kurd--made clear. A wild card remains 
the Sadrist Trend, and whether the Iraqis can continue to drive 
a wedge between other elements of the trend and Iranian 
supported Jaysh al-Mahdi special groups. A dangerous 
development in the immediate wake of the Basra operation was 
what appeared to be a reunification between special groups and 
the main line Jaysh al-Mahdi. We also saw a potential collapse 
of the Jaysh al-Mahdi freeze in military operations. As the 
situation unfolded, however, Muqtada al-Sadr issued a statement 
that disavowed anyone possessing heavy weapons which would 
include the signature weapons of the special groups. This 
statement can further sharpen the distinction between members 
of the Sadrist Trend who should not pose a threat to the Iraqi 
state and members of the special groups who very much do.
    One conclusion I draw from these signs of progress is that 
the strategy that began with the surge is working. This does 
not mean, however, that U.S. support should be open-ended or 
that the level and nature of our engagement should not diminish 
over time. It is in this context that we have begun negotiating 
a bilateral relationship and agreement between Iraq and the 
United States. In August, Iraq's five principal leaders 
requested a long-term relationship with the United States to 
include economic, political, diplomatic and security 
cooperation. The heart of this relationship will be a legal 
framework for the presence of American troops similar to that 
which exists in nearly 80 countries around the world. The 
Iraqis view the negotiation of this framework as a strong 
affirmation of Iraqi sovereignty placing Iraq on par with other 
U.S. allies and removing the stigma of Chapter VII status under 
the U.N. Charter pursuant to which coalition forces presently 
operate. Such an agreement is in Iraq's interest and ours. U.S. 
forces will remain in Iraq beyond December 31, 2008, when the 
U.N. Resolution presently governing their presence expires. Our 
troops will need basic authorizations and protections to 
continue operations, and this agreement will provide those 
authorizations and protections.
    The agreement will not establish permanent bases in Iraq, 
and we anticipate that it will expressly foreswear them. The 
agreement will not specify troop levels, and it will not tie 
the hands of the next administration. Our aim is to ensure that 
the next President arrives in office with a stable foundation 
upon which to base policy decisions, and that is precisely what 
this agreement will do. Congress will remain fully informed as 
these negotiations proceed in the coming weeks and months.
    Mr. Chairman, significant challenges remain in Iraq. A 
reinvigorated cabinet is necessary both for political balance 
and to improve the delivery of services to Iraq's people. 
Challenges to the rule of law, especially corruption, are 
enormous. Disputed internal boundaries, the Article 140 
process, must be resolved. The return of refugees and the 
internally displaced must be managed. The rights of women and 
minorities must be better protected. Iraqis are aware of the 
challenges they face and are working on them. Iraq's political 
progress will not be linear. Developments which are on the 
whole positive can still have unanticipated or destabilizing 
consequences. The decision to hold provincial elections, vital 
for Iraq's democratic development and long-term stability, will 
also produce new strains. Some of the violence we have seen 
recently in southern Iraq reflects changing dynamics within the 
Shi'a community as the political insecurity context changes. 
Such inflection points underscore the fragility of the 
situation in Iraq, but it would be wrong to conclude that any 
eruption of violence marks the beginning of an inevitable 
backslide.
    In terms of economics and capacity building, in September I 
reported to you that there had been some gains in Iraq's 
economy and in the country's efforts to build capacity to 
translate these gains into more effective governance and 
services. Iraqis have built on these gains over the past 
months, as is most evident in the revival of marketplaces 
across Iraq and the reopening of long-shuttered businesses. 
According to a Center for International Private Enterprise poll 
last month, 78 percent of Iraqi business owners surveyed expect 
the Iraqi economy to grow in the next 2 years. With the 
improving security and rising government expenditures, the 
International Monetary Fund (IMF) projects that Iraq's GDP will 
grow seven percent in real terms this year, and inflation has 
been tamed. The dinar remains strong, and the Central Bank has 
begun to bring down interest rates. Iraq's 2008 budget has 
allocated $13 billion for reconstruction, and a $5 billion 
supplemental budget this summer will further invest export 
revenues in building the infrastructure and providing the 
services that Iraq so badly needs.
    This spending also benefits the United States. Iraq 
recently announced its decision to purchase 40 commercial 
aircraft from the U.S. at an estimated cost of $5 billion. As 
Iraq is now earning the financial resources it needs for brick-
and-mortar construction through oil production and export, our 
assistance focus has shifted to capacity development and an 
emphasis on local and post-kinetic development through our 
network of provincial reconstruction teams and ministerial 
advisors. The era of U.S.-funded major infrastructure projects 
is over. We are seeking to ensure that our assistance in 
partnership with the Iraqis leverages Iraq's own resources. Our 
25 Provincial Reconstruction Teams (PRTs) throughout Iraq have 
been working to improve provincial and local governance 
capabilities, particularly in budget design and execution. They 
are also helping to establish critical linkages between 
provincial and Federal Governments. Our PRTs are great 
enablers, and we are working to ensure their continued 
viability as our forces redeploy. The relatively small amounts 
they disperse through Quick Response Funds have major impacts 
in local communities, and congressional support is important as 
it is for other vital programs in the fiscal year 2008 
supplemental request. Iraq increasingly is using its own 
resources to support projects and programs that we have 
developed. It has committed nearly $200 million in support of a 
program to provide vocational training for concerned local 
citizens who stood up with us in the awakening.
    Our technical assistance advisors have helped design new 
procurement procedures for Iraq's oil ministry. We developed 
the technical specifications from which Iraq's state-owned oil 
company will build new oil export platforms and underwater 
pipelines worth over $1 billion. And in Baghdad, in the last 
three months, the municipality has stepped up to take over 
labor contracts worth $100 million that we have been covering 
under the community stabilization program. Like so much else, 
Iraq's economy is fragile, the gains reversible and the 
challenges ahead substantial. Iraq will need to continue to 
improve governmental capacity, pass national-level hydrocarbon 
legislation, improve electrical production and distribution, 
improve the climate for foreign and domestic investment, create 
short- and long-term jobs and tackle the structural and 
economic problems of the vital agricultural sector. We will be 
helping the Iraqis as they take on this challenging agenda 
along with other international partners, including the United 
Nations and the World Bank.
    Along with the security surge last year, we also saw a 
diplomatic surge focused on enhancing U.N. Engagement in Iraq, 
anchoring the international compact with Iraq and establishing 
an expanding neighbors process which serves as a contact group 
in support of Iraq. The United Nations has taken advantage of 
an expanded mandate granted to the United Nations Assistance 
Mission in Iraq, UNAMI, to increase the scope of its activities 
and the size of its staff. Under dynamic new leadership, UNAMI 
is playing a key role in preparing for provincial elections and 
in providing technical assistance to resolve disputed internal 
boundaries. The United Nations High Commissioner for Refugees 
(UNHCR) has returned international status to Iraq to assist 
with the return of internally displaced persons and refugees. 
The international compact with Iraq provides a five-year 
framework for Iraq to reform its economy and achieve economic 
self-sufficiency in exchange for long overdue Saddam-era debt 
relief. Preparations are under way for a ministerial level 
compact meeting in Sweden next month; 74 nations were 
represented at last year's gathering in Egypt.
    Iraq's neighbors also understand they have a major interest 
in Iraq's future. Turkey hosted the second ministerial meeting 
of Iraq's neighbors in November, and Kuwait will host a third 
meeting later this month. In addition to all of Iraq's 
neighbors, these expanded conferences also include the 
permanent five members of the Security Council, the Arab League 
and G-8. Support from Arab capitals has not been strong and 
must improve for the sake of Iraq and the sake of the region. 
Bahrain's recent announcement that it will return an ambassador 
to Baghdad is welcome, and other Arab states should follow 
suit.
    Iraq is a multi-ethnic state but it is also a founding 
member of the Arab League and an integral part of the Arab 
world. Last month Iraq hosted a meeting of the Arab 
Parliamentary Union bringing the leaders of Arab parliaments 
and consultative councils to Iraq for the first major inter-
Arab gathering since 1990. It is noteworthy that the meeting 
was held in the Kurdish city of Irbil, under the recently 
redesigned Iraqi flag highlighting both the remarkable 
prosperity and stability of Iraq's Kurdish region and the 
presence of the Iraqi Federal state. We hope that this event 
will encourage more active engagements with Iraq, and we expect 
that Prime Minister Maliki's efforts against Shi'a extremist 
militias in Basra will also receive Arab support.
    The presence of the Kurdistan Workers Party (PKK) terrorist 
organization in the remote mountains of Iraq along the Turkish 
border has produced tension between Turkey and Iraq and led to 
a Turkish cross-border operation in February, including 
movement of Turkish ground forces into Iraq. At the same time, 
both governments are working to strengthen their ties, and 
Iraqi President Talabani made a successful visit to Turkey in 
March.
    Syria plays an ambivalent role. We have seen evidence of 
efforts to interdict some foreign fighters seeking to transit 
Syria to Iraq, but others continue to cross the border. Syria 
also harbors individuals who finance and support the Iraqi 
insurgency. Iran continues to undermine the efforts of the 
Iraqi Government to establish a stable secure state through the 
army and training of militia elements engaged in violence 
against Iraqi Security Forces, coalition forces and Iraqi 
civilians. The extent of Iran's malign influence was 
dramatically demonstrated when these militia elements clashed 
with Iraqi Government forces in Basra and Baghdad. When the 
President announced the surge, he pledged to seek out and 
destroy Iranian-supported lethal networks inside Iraq. We know 
more about these networks and their Quds Force sponsors than 
ever before, and we will continue to aggressively uproot and 
destroy them. At the same time, we support constructive 
relations between Iran and Iraq and are participating in a 
tripartite process to discuss the security situation in Iraq. 
Iran has a choice to make.
    Mr. Chairman, almost everything about Iraq is hard. It will 
continue to be hard as Iraqis struggle with the damage and 
trauma inflicted by 35 years of totalitarian Baathist rule. But 
hard does not mean hopeless. And the political and economic 
progress of the past few months is significant.
    I must underscore, however, that these gains are fragile, 
and they are reversible. Americans have invested a great deal 
in Iraq in blood as well as treasure, and they have the right 
to ask whether this is worth it, whether it is now time to walk 
away and let the Iraqis fend for themselves. Iraq has the 
potential to develop into a stable secure multi-ethnic multi-
sectarian democracy under the rule of law. Whether it realizes 
that potential is ultimately up to the Iraqi people. Our 
support, however, will continue to be critical. I said in 
September that I cannot guarantee success in Iraq. That is 
still the case, although I think we are now closer.
    I do remain convinced that a major departure from our 
current engagement would bring failure, and we have to be clear 
with ourselves about what failure could mean. Al Qaeda is in 
retreat in Iraq, but it is not yet defeated. Al Qaeda's leaders 
are looking for every opportunity they can to hang on. Osama 
bin Laden has called Iraq the perfect base, and it reminds us 
that a fundamental aim of al Qaeda is to establish itself in 
the Arab world. It almost succeeded in Iraq. We cannot allow it 
a second chance. And it is not only al Qaeda that would 
benefit. Iran has said publicly it will fill any vacuum in 
Iraq, and extremist Shi'a militias would reassert themselves. 
We saw them try in Basra and Baghdad over the last several 
weeks. And in all of this, the Iraqi people would suffer on a 
scale far beyond what we have already seen. Spiraling conflicts 
could draw in neighbors with devastating consequences for the 
region and the world.
    Mr. Chairman, as monumental as the events of the last 5 
years have been in Iraq, Iraqis, Americans and the world 
ultimately will judge us far more on the basis of what will 
happen than what has happened. In the end, how we leave and 
what we leave behind will be more important than how we came. 
Our current course is hard, but it is working. Progress is 
real, although fragile. We need to stay with it.
    In the months ahead, we will continue to assist Iraq as it 
pursues further steps toward reconciliation and economic 
development. Over time this will become increasingly an Iraqi 
process, as it should be. Our efforts will focus on increasing 
Iraq's integration regionally and internationally, assisting 
Iraqi institutions locally and nationally to strengthen the 
political process and promote economic activity and supporting 
the efforts of the United Nations as Iraq carries out local 
elections toward the end of the year. These efforts will 
require an enhanced civilian commitment and continued support 
from the Congress and the American people.
    In closing, Mr. Chairman, I want to recognize and thank all 
those who serve our country in Iraq, both military and 
civilian. Their courage and their commitment at great sacrifice 
has earned the admiration of all Americans. They certainly have 
mine, and it is an honor to serve there with them. Thank you 
sir.
    [The prepared statement of Ambassador Crocker can be found 
in the Appendix on page 78.]
    The Chairman. Mr. Ambassador, thank you very much.
    Mr. Ambassador, in your comments, you said that U.S. 
support should not been open-ended. I certainly agree with 
that. You also point out that whether Iraq realizes its 
potential is ultimately up to the Iraqi people. Is that not 
correct?
    Ambassador Crocker. That is correct, Mr. Chairman.
    The Chairman. You point out in your testimony the need for 
a reinvigorated cabinet, for political balance; the need for 
delivery of services to the Iraqi people; the need for the rule 
of law, the problems of corruption, which are enormous, you 
say; the disputed internal boundaries, return of refugees, 
return of internally displaced people; the rights of minority 
and women all must be protected. All of this is part of what 
needs to be done in what is being called reconciliation.
    Am I not correct, Mr. Ambassador?
    Ambassador Crocker. Yes. That is correct, Mr. Chairman.
    Mr. Chairman. The surge in forces and the counterinsurgency 
doctrine has led to reduced violence. Its purpose was to create 
political space for the Iraqis to move forward on 
reconciliation within its government and within its people.
    Now we know there has been some incremental progress. But 
there has not been this fundamental reconciliation, the list of 
which you just gave us. So where do we go from here? We will be 
returning the surge forces, redeploying them. So what is our 
strategy for the future? What leverage do you have on the Iraqi 
Government to take the training wheels off and to get on with 
its task? We have been at this now for years. How do you do 
that?
    General, Mr. Ambassador.
    General Petraeus. First of all, Mr. Chairman, I would point 
out that they want to do that as much as we do. Indeed, they 
have put themselves under enormous personal pressure and 
collective pressure of the various political elements in Iraq 
to increasingly exercise their sovereignty. In fact, that is 
exactly what Prime Minister Maliki did, of course, when he 
decided as the constitutional commander in chief of the armed 
forces of Iraq to deploy forces on short notice to Basra and 
then to enter into operations against militia elements down 
there that were the source of crime and other security 
challenges. That was not something that we pushed him to do, 
candidly. That was something that they wanted to do. They feel 
that pressure themselves.
    So, again, it is not about us twisting their arm, I don't 
think, to exercise their sovereignty. It is truly about us 
enabling that and trying to support it as much as we can while 
keeping as light a hand on the bicycle seat as possible. There 
are numerous provinces throughout Iraq in which we have no 
forces, or virtually no forces, perhaps a Special Forces team 
or not much more than that. By the way, these were challenged, 
some of these provinces were challenged during the outbreak of 
violence that accompanied the start of the Basra operation. In 
the bulk of those southern provinces, Iraqi forces proved up to 
the task.
    The Chairman. At what point, General, will you recommend 
redeployment of additional forces beyond the several brigades 
that are a part of the so-called surge?
    General Petraeus. As I have laid out, Mr. Chairman, we will 
be reducing by over one quarter of our ground combat powers.
    The Chairman. From what to what, sir?
    General Petraeus. From 20 brigades to 15 brigade combat 
teams, and also taking out two Marine battalions and the Marine 
Expeditionary Unit. That is a substantial amount. At the end of 
that, we think it makes sense to have some time to let the dust 
settle, perhaps to do some adjustment of forces.
    The Chairman. That is my question, General. At what point 
do we--do you make recommendations to start going into the 15 
brigades?
    General Petraeus. As the conditions are then met, and we 
look at the security and local governance conditions that allow 
us to thin out our forces and thereby to redeploy additional 
elements.
    The Chairman. What will be those conditions?
    General Petraeus. As I said, it is essentially what we have 
used in the past. We are thinning out very substantially right 
now. And we had to decide where to do that. We looked at 
primarily the security and local governance conditions, the 
enemy situation, the ability of Iraqi Security Forces to take 
on more of a load and us to take on a less of a load. The 
ability, again, of the local authorities to carry on and 
perform tasks in some cases that we were helping or perhaps 
performing.
    Again, those are the conditions that we examine. That is 
exactly the process that has guided us as we have determined 
which forces to take out and where to move them during the 
course of the reduction of the surge forces.
    The Chairman. Can you foresee the reduction beyond the 15?
    General Petraeus. I can foresee the reduction beyond the 
15, yes, sir. Again, the key is in fact we are looking at four 
or five locations already that we have an eye on, looking to 
see if those conditions can be met there. Again, we have a 
number of months and a number of substantial actions to take 
before then. But we are already identifying areas that we think 
are likely candidates for that.
    The Chairman. Do you have a judgment as to how many 
brigades of that 15, as you look at those certain areas, could 
be redeployed?
    General Petraeus. Sir, I am not sure. Again, what we are 
doing is looking at these different areas. Over time, I think 
all of them. Again, the question is at what pace that will take 
place.
    The Chairman. Mr. Ambassador, outside businesses, mostly 
American contractors, have been substantial employers in Iraq. 
Can you tell us, beyond the American contractual employment, 
how many market sustainable jobs have been created in the last 
12 months?
    Ambassador Crocker. I can't give you a reliable figure.
    The Chairman. What is your best judgment?
    Ambassador Crocker. Thousands and thousands of jobs, Mr. 
Chairman.
    I referred in my testimony to one district of Baghdad, the 
district of Dora. A year ago, there were no markets. There was 
no economic activity at all. The Dora market today has 
something like 1,000 separate shops that are open and doing 
business. This has been replicated throughout the country in 
Ramadi and Fallujah, Anbar, and other parts of Baghdad. There 
has been a very substantial increase in economic activity and 
job creation as a result.
    The Iraqi Government is also moving forward to create more 
jobs. The Council of Ministers yesterday passed a support 
program for development in Mosul, Baghdad and Basra, all three 
areas affected by conflict, $350 million for reconstruction and 
for job creation. So this is an ongoing process.
    The Chairman. My understanding is that some people within 
our government state that the unemployment rate in Iraq is 
between 25 percent and 50 percent. If that is the case, can you 
predict what the unemployment rate will be one year from now, 
Mr. Ambassador?
    Ambassador Crocker. Again, I cannot predict what it will be 
exactly because, frankly, we don't have a great deal of 
confidence in figures that indicate what it is now. There is 
both unemployment and underemployment. What I would be 
confident in, with the continuation of the security 
improvements we have seen, is that in conditions of better 
security, you are going to see more economic activity.
    The Chairman. Do you agree, Mr. Ambassador, that jobs and 
economic security are the basis of a strong Iraq?
    Ambassador Crocker. That is absolutely the case, Mr. 
Chairman. That is why both we and the Iraqi government put so 
much emphasis on job creation and economic development.
    The Chairman. Mr. Hunter.
    Mr. Hunter. Thank you, Mr. Chairman. Thanks for this 
hearing. Gentlemen, excellent testimony. I think you gave us a 
good broad brush of how things are going.
    A reliable, effective military is produced by military 
operations. A number of us have recommended that the Iraqi 
battalions now numbering 134, I believe, be rotated into combat 
operations on a regular basis so that they all achieve a 
certain competency, able to develop their logistics chains, 
exercise their chain of command, develop battlefield 
effectiveness.
    I know we have done that in the Baghdad operations on a 
regular basis. So, General Petraeus, could you give us your 
take on the combat experience of the Iraqi army. How many 
battalions now have a modicum of combat experience, and how do 
you rate them? You might speak to the Basra experience as well 
as the Baghdad experience.
    General Petraeus. First of all, Congressman, I think that 
just about all of the battalions in the Iraqi army at this 
point have been in some form of combat, with perhaps a few 
exceptions of units that have just come out of basic training 
and units fielding and that have deployed areas now relatively 
peaceful, let's say a place like Anbar Province. Although, even 
there what we are doing is pushing them farther out from Anbar 
to pursue the enemy, try to keep our hooks into him. So, again, 
they are getting tested in combat and, by and large, have done 
well.
    Again, in the southern provinces in which they were tested 
recently, virtually all of them, Karbala Hill, Wasit, 
Qadisiyyah, Muthanna, and Dhi Qar, there were various 
challenges to them, and forces responded to those effectively. 
In Basra, unfortunately, one of the units that was thrust right 
into it very quickly was a unit that was just out of its unit 
set fielding. Others were local police who are intimidate-able, 
if you will, because of coming from local areas, and conditions 
were not set for them as they might have been, frankly, so that 
they could get overwhelmed, could get intimidated by 
individuals who are actually well equipped and well trained.
    As, however, conditions have been established, as they have 
now got their footing, as additional experienced forces have 
flowed into Basra, it is very much an ongoing operation. They 
have then moved on. They have secured the ports. They have 
secured some key checkpoints and routes through which smuggling 
flows and so forth.
    All of this is still very much ongoing there, as it is in 
some of the other areas where the violence has gone up in 
recent weeks. The units that rotated through Baghdad did well. 
In fact, the Iraqis now are able to move them back to the 
locations from which they came. In several cases, they were 
from Ninawa province from Mosul. They can go back and help with 
the effort there to keep the pressure on al Qaeda Iraq.
    As you know, the violence by al Qaeda Iraq has gone down 
significantly across the board, with the one exception of 
Ninawa province. As we focused on the Euphrates River Valley, 
the Basra neighborhoods north and south of Baghdad, Diyala 
River Valley, Baqubah, literally moved on up. However, it has 
not gone up nearly the way it came down across the board in the 
other provinces. Again, up there they are very much in the 
lead.
    As I mentioned, there are over 100 battalions assessed to 
be in the lead, regardless of whether they are operational 
readiness assessment one or not. Frankly, the Operational 
Readiness Assessment (ORA) is difficult for the Iraqis because 
it is a very mechanical assessment. You either have the right 
number of leaders or you don't; right number of troopers, 
noncommissioned officers, equipment, maintenance, and so forth. 
What they do is they tend to pull leaders out once they have 
proven themselves in these units to form new units. So it is 
very difficult to keep the manning level to literally keep the 
arithmetic right to achieve ORA one status.
    What we tend to look at more is, are they capable of being 
in the lead, which is more based on demonstrated performance? 
And as I mentioned, there are over 100 of those units. In fact, 
it appears we are looking now to confirm that versus their 
recent performance, and it appears that that generally was an 
accurate assessment.
    Mr. Hunter. Give us your take, if you could, on the success 
or the degree of success or failures in the Basra operation. 
What do you see there, General?
    General Petraeus. Sir, the deployment was very impressive. 
As I mentioned in my statement, there is no way they could have 
deployed about a division's worth. Over time, it was three 
brigades equivalent of forces plus division headquarters and a 
lot of enablers. That never could have happened a year ago. In 
fact, they didn't have the capability to do that. They then 
used their C-130's cycled through multiple sorties a day to 
bring in supplies, reinforcements, medical, Black Hawk 
casualties, and so on to deploy their various other elements.
    The Iraqi special operations forces elements across the 
board, all of them were involved, from the army, the police, 
and various provincial SWAT teams as well. It was actually SWAT 
battalions in some cases. Needless to say, those tended to 
perform better than the brand new unit that I mentioned, and 
better than local police in, again, very, very contentious 
areas where they could get overwhelmed quickly and where the 
conditions weren't set. That is the area where there has to be 
some serious after-action review work done. That has to do with 
the setting of conditions with the planning, the detailed 
planning and preparation before going right into combat.
    There was, candidly, an expectation that there was going to 
be more of that done. There were lines of operation, political, 
tribal, security, and so forth, and what happened in the end 
was there was a pretty precipitous entry into combat operations 
before, again, some of these units were set the way they 
should. Again, the operation very much still ongoing.
    Mr. Hunter. What is the state of play right now in Basra in 
terms of territory held by the antigovernment forces?
    General Petraeus. Well, as I mentioned, the Iraqi Security 
Forces took control of the ports, which is very, very important 
because some of those were in the grip of militias or 
smugglers. They have also taken control of some key areas 
through which smuggling and weaponry supply took place.
    On the other hand, there are still some militia strongholds 
that they will have to deal with over time. Some of this in the 
end is going to end up being political probably more than it 
will be military. There is a lot of discussion. The president 
of Iraq yesterday issued a statement, or today I guess it was, 
issued a statement about militias, and as has Prime Minister 
Maliki and others. Again, I think some of this is going to have 
to be sorted out in that end so that they don't end up in a 
real pitched battle in some of these very densely packed 
neighborhoods and cause untold damage.
    Mr. Hunter. Just a last question on that. General, if you 
were to give a grade or a status report on the maturation and 
the reliability of the Iraqi army, where do you put them right 
now?
    General Petraeus. Again, it is a very, very mixed bag 
across the board, ranging from exceedingly good units in the 
Iraqi special operation force brigade, down to some of these 
very new units. So you have to end up somewhere in the middle. 
So I think it is somewhere in the B minus, B range, with 
recognition that there is a lot of work needed to be done still 
in the so-called expeditionary logistics and a variety of 
different command and control systems, staff planning, and so 
forth.
    Mr. Hunter. Thank you, Mr. Chairman.
    Mr. Chairman. Mr. Hunter, thank you very much.
    Under the five-minute rule, we will proceed with Mr. 
Spratt.
    Mr. Spratt. General Petraeus, Ambassador Crocker, we are 
fortunate to have two men of your character, commitment and 
caliber in the tough assignments that you have got. We 
appreciate your service to our country.
    The cost of our deployment is not the determining factor in 
deciding how we size our forces or how long we stay engaged 
there. But when the cost is $600 billion dollars and rising and 
there is no exit sign in sight, it has to be a consideration. 
As odd as it may seem, it is a rare briefing, believe me, on 
the Hill that makes any mention of the cost of the war in Iraq 
as widely discussed outside that context, at least not since 
Secretary Wolfowitz ventured the prediction that this 
deployment would last no more than 6 to 12 months and that the 
Iraqis, with their vast amount of wealth, would be able to 
shoulder most of the cost.
    To put this decision that faces us, you and us, in context, 
the chairman has asked me just to give you, give us all a brief 
overview of what the cost of the commitment has been, the cost 
to date of what we have incurred, and what is the cost to go.
    The first chart we have got is a very simple table which 
simply shows that, from 2001 through this fiscal year, $608 
billion has been provided for Iraq; $771 billion for Iraq and 
Afghanistan together. The next chart shows that the cost is 
climbing every year. Beginning with 2003, there is a steady, 
steady relentless increase in the cost of the war. The total 
cost there is shown as $608 billion.
    We have been unable to induce the Department of Defense to 
do us a projection of the likely cost to go. So we asked our 
own budget shop, the CBO, the Congressional Budget Office, to 
do such a projection. The next chart shows CBO's estimate of 
the cost from 2009 through 2018. This series of bar graphs 
assumes that there will be a drawn down to 75,000 troops in 
both theaters, Iraq and Afghanistan, a very questionable 
assumption, but that there will be a draw down to 75,000 troops 
by 2013, and thereafter sort of a steady state at this level, 
75,000 troops over the next 5 years, through 2018.
    So, the total cost from 2009, if these projections are 
anything close to accurate, the total cost from 2009 to 2018 
will come to about $1 trillion. If you add this $1 trillion for 
the outyear costs to the $608 billion already appropriated, the 
total comes to about $1 trillion 600 billion. If you adjust 
that for debt service--and we are borrowing every dime of this, 
so you may as well add the interest to it--it is well over $2 
trillion.
    I have run these numbers past the Pentagon--they are not 
complicated--and asked them for their projections if they 
consider ours wrong or at least their corrections to our 
projections. They have not validated these numbers, but neither 
have they invalidated these numbers.
    Here is what we do have from the Department of Defense 
(DOD). We have a request from the Department of Defense for 
Iraq and Afghanistan in 2009, the next fiscal year, the budget 
year we are about to begin work on, of $70 billion. I don't 
think either one of you would support that number. Indeed, the 
Pentagon says it is a place holder. It is a place holder. But 
given the supplemental request for this year, which has not 
been fully appropriated yet, it is $196 billion. It is hard to 
believe that we will fall or drop from $196 billion to $70 
billion between 2008 and 2009. So one thing we don't have yet, 
even though we are about to begin the budget season, is a real 
number for 2009.
    Second, we don't have a realistic number for the out years 
beyond 2009. We have instead, believe it or not, an actual 
decline in real dollars in the Pentagon's Fiscal Year Defense 
Plan (FYDP). We have a decline in real dollars for 2005 for the 
Department of Defense budget over the next five--over the four 
years following 2009.
    I think you would agree that these are consequential 
numbers, whether you agree with them exactly or not. Whenever 
you spend $2 trillion on one thing, you don't have $2 trillion 
to spend on something else. A good example is Afghanistan. 
Admiral Mullen sat where you sat just last week and said: We 
are under sourcing, under resourcing, undermanning Afghanistan. 
But to move the resource levels up to where they ought to be, 
our allies are not coming through with any big numbers. To do 
that would require that we detract from Iraq. And as long as 
Iraq is the number one objective and Afghanistan the 
subordinate objective, we don't have the wherewithal to do 
that. There is an opportunity cost to be paid.
    So my basic question is this, look at these costs. As you 
make your assessment of the situation after the five brigade 
combat teams have been withdrawn, are considerations like this 
a factor, the tradeoffs, the effectiveness in stretching out 
the Army, the priorities? Is this something you two will weigh 
in your consideration as to what we should do for our continued 
deployment?
    [The charts referred to can be found in the Appendix 
beginning on page 95.]
    General Petraeus. Absolutely, Congressman. In fact, as I 
mentioned in my statement, that is one of the major strategic 
considerations that I offered.
    Mr. Spratt. Could you tell us, what your--with the $70 
billion, what the likely supplemental request for this year is?
    General Petraeus. Sir, as you know, that is a service 
responsibility.
    Mr. Spratt. Thank you, sir.
    I think I have been overruled.
    The Chairman. Mr. Saxton.
    Mr. Saxton. Mr. Chairman, may I just ask, Mr. Chairman, if 
the five-minute rule, as the way it has played out here in the 
last few minutes, somehow we need to permit I would think 
General Petraeus and Ambassador Crocker to answer questions.
    Mr. Chairman. Certainly. If you have an answer to that last 
question, feel free to do so. Thank you very much.
    General Petraeus. Well, what I was going to say, Mr. 
Chairman, is merely, again, we work very closely with the 
services. But at the end of the day, as you well know, it is 
the services that provide the input to the department and 
provide those numbers.
    The Chairman. Thank you.
    Mr. Saxton.
    Mr. Saxton. Thank you, General, Ambassador Crocker.
    First, let me thank you for your great candor here this 
morning in explaining what you see as progress, as well as what 
you see as challenges for the future. I think it is important 
that we understand that, we understand your perspective, and 
that the American people have an opportunity to understand your 
perspectives, particularly with regard to their concerns about 
the future.
    General Petraeus, in your testimony you note your 
recommendation for a 45-day period of consolidation and 
evaluation followed by a process of assessment to determine 
possible further reductions in U.S. force levels in Iraq. I 
believe that it is very important that we understand that 
process and that the American people have an opportunity to 
understand that process as well.
    So if you could each take whatever time you need to 
describe that assessment process, including some of the factors 
which you will be tracking.
    General Petraeus. Congressman, essentially, it is hard. 
This is looking at the security and local government conditions 
in a particular area to determine where and how we can thin out 
our forces rather than completely handing off. That is what we 
have done already. In Anbar Province, for example, we are in 
the process of going from 14 battalions down to about 6 
battalions. That is part of the ongoing process.
    So this is really an assessment process that we have used 
repeatedly as we have looked at where we should end up, if you 
will, in doing the so-called battlefield geometry of 
determining troop-to-task analysis and where you want to 
position forces, again, when the dust settles. That is the same 
process that we will do in the future.
    As I mentioned earlier, there are already several areas 
that we have identified that are the candidate locations for 
further reductions. In each case, we sit down with the 
commanders, with their staffs. We walk the ground. We work with 
the local authorities. Again, at the heart of it, it has to do 
with the security situation. What is the enemy situation? What 
is the Iraqi capability to deal with that? What are the factors 
in terms of local governance, basic services, and other factors 
that feed into the sense that the population will support their 
legitimate forces? And then we determine where we want the 
forces to end up and what strength, and that allows you to 
withdraw certain forces over time.
    Ambassador Crocker. Sir, there is also what we call a 
political-military calculus that we have to take into account, 
as well as the battlefield geometry. One element of that is 
assessing not only what the conditions are with our current 
force presence, but how things change as we redeploy, how 
various elements on the scene may reposition their selves 
because we are no longer there. So it is a complex evaluation 
both of current conditions but also projecting how our 
redeployment will change future conditions.
    Mr. Saxton. It sounds to me like you are saying that this 
process of assessment has been used in the past and it has 
resulted, at least in one result, at least, has been that we 
are now talking and projecting that we are going to reduce 
forces, bring the surge folks home, if you will. So this 
assessment process is not something that you are creating for 
the future, it is something that has actually been used in the 
past to arrive at the decisions that you have now made.
    General Petraeus. That is correct, sir. In fact, we are 
certainly well over halfway through the reduction of the surge 
forces, and that is exactly the process that we have used as we 
have sat down and worked this out. Obviously, I sit a good bit 
with the Multinational Corps Iraq commander, previously General 
Odinero, now General Austin, as we do that process and work 
that out.
    As I mentioned, we also certainly sit down with the 
commanders in those areas, walk the streets, talk to local 
Iraqis, look at the trends, look at the metrics. I showed you 
some of the metrics today, that if you look at them on a local 
basis, again, guide the assessment that I have described to 
you. Again, it is exactly the process that we have used to 
examine where we could in fact draw our forces down as we bring 
the surge forces home.
    It has not been just mechanical. We haven't just pulled one 
out that we put in. We actually will look a good bit different 
at the end of this than we did before. As an example, far fewer 
forces in Anbar Province because of the progress that has been 
made there.
    Mr. Saxton. Mr. Chairman, thank you.
    The Chairman. Thank you.
    Mr. Ortiz.
    Mr. Ortiz. Thank you, Mr. Chairman. I want to thank both of 
you gentlemen for your service and sacrifices that you have 
made. We appreciate both of you being with us today.
    General Petraeus, the human cost of the war is a loss of 
4,000 American lives. The security gains of this surge are, in 
my opinion, arguable, as evidenced by the recent fighting in 
Baghdad and Basra. Another cost is the significant decrease in 
our current military readiness. In fact nearly all Stateside 
units are unable to complete all of their assigned worked if 
called upon or for contingency combat operations. I firmly 
believe that we have to be prepared to fight yesterday, today 
and tomorrow. I am afraid that we are running out of options 
should another contingency arise requiring the use of our 
ground forces.
    Now how long do you believe the ground forces can sustain 
the current operational tempo and the pace of deployment? And 
how much of a strategic risk to America should we expect to 
assume before we see real progress?
    I ask these questions because we have had different 
hearings where we see that our equipment is being destroyed. We 
have too many deployments. The troops are tired. Maybe you can 
enlighten the committee as to how long can the ground forces 
sustain the current operational tempo, and the risk to us 
Americans we expect to assume before we see real, real progress 
in Iraq and Afghanistan.
    General Petraeus. Congressman, as I mentioned in my 
statement and in response to an earlier question, I am keenly 
aware of the strain. I can tell you that there is nothing that 
a commander feels more than, in fact, the losses that we have 
sustained over there.
    As I mentioned yesterday, I have been deployed personally 
for four-and-a-half years since 2001. So this is something that 
my family and I do know a great deal about personally. The 
forces that are in Iraq are the ones that I can talk to. I can 
tell you that those forces are better prepared to do what we 
are doing there now than they ever have been at any time that I 
have been in Iraq.
    I have mentioned several times that there were two huge 
facts that were different when I returned to Iraq in February 
2007. One was the damage done by sectarian violence, which was 
horrific, which we were going to try to stop and, by and large, 
have achieved great progress in stopping. The second was how 
much more our troopers get it about what it is they are doing. 
The counterinsurgency is not just stability-and-support, 
hearts-and-minds operations. It includes by doctrine, by 
definition, offense, defense, as well as stability and support. 
They are conducting big operations on occasion or have in the 
course of the past year in places like Ramadi, south Baghdad, 
Baqubah, and others and have done a magnificent job in that, 
thanks in large measure to the equipment and to the vast 
improvements that have been paid in what our soldiers have down 
range now.
    When I look at what we had when I was a division commander 
and went through the berm in the fight to Baghdad, and what 
divisions have now, it is extraordinary. We are very grateful. 
I would like to single out particularly the Mine Resistant 
Ambush Protected (MRAP) vehicles have already saved countless 
lives in Iraq. And the speed with which you made that happen, 
together with the department, was very impressive.
    Again, having said all that, I am aware keenly of the 
strain and stress on the force, on the individuals, on the 
equipment, on readiness and so forth. Having noted that, 
paradoxically, our troopers have incredible resilience. The 
reenlistment of the Third Infantry Division, which is 
completing its third tour in Iraq now, they have already met 
halfway through the year their reenlistment goal for the entire 
year.
    So there is something special about what it is our men and 
women are doing in their minds and about the cause that they 
are serving. It is something larger than self. It is something 
that is very important. And of course, ultimately, on the 
battlefield, it is about the soldier on their right and left. 
But they have continued to raise their right hand.
    There is one segment of the population that we are 
concerned about, and that is the young captains. Some of them 
have been in the cycle where we have asked an extraordinary 
amount of them in particular, and I know the Army is working 
very hard to look at the issues involving them.
    We should note, and I am sure the Army has explained, there 
is also a different readiness model. There is no question but 
that the strategic reserve right now is, as General Cody 
rightly pointed out, the lowest he has seen in his time. But 
also it is programmed that when units come back, that they will 
refit and all the rest of that.
    That will be rebuilt over time. I think that over time, I 
am hopeful, I have certainly given my support to 12-month 
deployments. Operationally, we would welcome that, both because 
of the strain and stress and really just the general 
recognition of the value in that. Hopefully, this reduction can 
allow that over time.
    The Chairman. Along that same line, General, do you take 
into account the strain on the American forces in your 
recommendations to redeploy from Iraq?
    General Petraeus. Absolutely, yes, sir.
    The Chairman. Thank you.
    Mr. McHugh from New York.
    Mr. McHugh. Thank you, Mr. Chairman.
    Gentlemen, thank you so much for being here. Over 10 hours 
yesterday over the United States Senate. God knows how many 
hours today before the House. Your courage, your commitment has 
been well underscored. We appreciate your being here and all 
that you do.
    I guess the big debate right now, the big question is, 
what, if anything, happens through a precipitous withdrawal? 
Both of you have spoken about Basra. I guess we will be 
learning lessons there for some time. But as I look at the lead 
up to Basra, as I look to what conditions were on the ground 
there that created the opportunity for the Quds force to come 
in to become involved with the so-called special groups, with 
the criminal elements that operated out of the port, taking 
revenues that should have gone to the Iraqi people and instead 
directing them into illegal activities, all of the nefarious 
elements that came to fore there, is there a lesson to us about 
precipitous withdrawal?
    We have been blessed with great coalition partners. But in 
the south I think there is some reason to be concerned that 
perhaps the turnover there happened without proper conditions 
on the ground. Am I totally wrong there, or are there some 
lessons we can learn about why we need to be prudent in the 
days ahead?
    General Petraeus. Well, there are lessons to be learned. 
But it is also very important to recognize that, again, this 
was sought by the Iraqis. They very much wanted to have Basra 
shift to provincial Iraqi control. There were a number of 
measures taken to shore up their police and soldiers in the 
months prior to the handoff. But there is also no question that 
there were some of these criminal elements that were able to 
get their tentacles into port operations and some other areas 
and that were then leading to bigger problems in Prime Minister 
Maliki's mind and threatening the security of the area that 
produces some 90-plus percent of the revenue for Iraq.
    But it is, again, why the commanders on the ground, why I 
have recommended that our reductions be conditions-based. As 
the Ambassador and I both mentioned, there are enormous 
implications here for really the safety and security of our own 
country with respect to al Qaeda, with respect to the spread of 
sectarian conflict, regional stability, and, again, a region 
that is obviously of vital importance to the global economy, 
Iranian influence, and so forth.
    So there have been gains. We both mentioned that they were 
fragile gains. We want to see those hard-won gains preserved by 
ensuring that conditions are present, albeit with some risk, 
certainly. We are going to have to take some risks. Again, I am 
keenly aware that there are some other risks in Iraq out there.
    Obviously, the earlier questioning has featured a great 
deal about that, and I mentioned that in, again, the 
considerations that I have used to guide the recommendations 
for the future.
    Mr. McHugh. I think all of us, certainly I, feel very 
strongly that the Iraqi Government needs to do more. All of us 
want to see further gains, even though I would certainly argue 
there has been a substantial amount of progress over the past 
12 months or so.
    All of us, myself included, are disappointed in the Arab 
neighbors, who definitely need to do more on their own behalf 
and in terms of their own security as it is directly affected 
by Iraq. If that were all that were afoot here, I think each 
and every one of us would vote to bring our forces home as 
quickly as we could physically do that.
    But as I see your testimony here, when, Ambassador Crocker, 
you talked yesterday about the impact of an earlier conditional 
withdrawal, ``with devastating consequences for the region and 
the world,'' when both of you talk today, as, General Petraeus, 
you have, saying, al Qaeda's senior leaders ``still view Iraq 
as a central front in their global strategy,'' and, Ambassador, 
you say Osama bin Laden has called Iraq the ``perfect base,'' 
this is not just about Iraq and the benefit of the Iraqi 
people, or even the region, is it? We are really talking about 
the primary security interest of each and every American. Or do 
I have that wrong?
    General Petraeus. That is correct.
    Ambassador Crocker. It is correct, Congressman.
    Al Qaeda is a strategic enemy of the United States. It was 
dangerously close to setting down lasting roots in Iraq in Arab 
territory, which as I noted in my testimony, is a main goal of 
this predominantly Arab terrorist organization. If it were to 
have succeeded, or to succeed in the future, it is certainly my 
judgment that the threat to the United States would rise 
considerably.
    Mr. McHugh. Thank you.
    The Chairman. Thank you.
    Mr. Reyes, the gentleman from Texas.
    Mr. Reyes. Thank you, Mr. Chairman.
    Gentlemen, thank you for being here and for your service to 
our country.
    I, like my colleague, agree that all of us want to see our 
troops returned home as quickly as possible.
    General Petraeus, I know that you are knowledgeable to the 
findings of the most recent National Intelligence Estimate 
(NIE) on Iraq. At this point in time, no portion of the most 
recent Iraq NIE has been declassified, so we can't talk about 
the findings of that assessment, at least not in an open 
hearing like this. But in the unclassified key judgments from 
the August 2007 update, it stated: There have been measurable 
but uneven improvements in the Iraq security situation since 
our last National Intelligence Estimate on Iraq in January of 
2007. That was the August NIE, the declassified portion.
    So, as someone, like many of my colleagues here today, who 
has studied the current NIE and previous intelligence 
estimates, I have to say that the situation in Iraq, as has 
been verified by the Director of National Intelligence, is 
somewhat inconsistent with the actions that you are 
recommending or proposing in terms of the drawdown of the 
surge.
    So my question is--and, actually, two questions. First of 
all, has the security situation on the ground in Iraq changed 
so much that we can actually start pulling back the surge 
forces? The second question is, what happens if the security 
situation changes during the so called 45-day pause? Are we 
going to reinstate the surge? And if we are, how long can such 
a reconstituted surge be sustained, in your opinion?
    General Petraeus. First of all, again, I would not have 
recommended drawing down the surge if I did not think that the 
security progress enabled that, not just in terms of all the 
metrics that I have shown but also in the slowly but steadily 
improving capabilities of Iraqi forces, Iraqi governance, and 
other aspects that we take into account.
    Mr. Reyes. Irrespective of what has happened in Basra?
    General Petraeus. In fact, the Iraqis are in the lead in 
Basra, Congressman. Again, they are the ones. We have some 
transition teams. We have some advisors. We have certainly 
provided enablers in the form of intelligence, surveillance, 
reconnaissance, closed air support, which the Iraqis do not 
have a sufficient capability yet but are developing.
    Mr. Reyes. In your statement, you also said that the 
current situation is fragile and reversible. You are not 
concerned that Basra could be the string that would start 
unraveling the rest of the fragile stability that you talked 
about?
    General Petraeus. In fact, in the other southern provinces, 
it is the reason I highlighted that, because they could succumb 
to the same kind of challenges that you have in Basra. And 
there were attempts by militia elements in these other southern 
provinces. Virtually all of them that are south of Baghdad, 
down to Basra, and, again, in all but really, Mayson, which is 
the Marsh Arabs who have always been out of control, weren't 
under control under Saddam and aren't under control by anybody 
right now either, frankly. The rest of those have done well. In 
fact, the Iraqi forces in those areas, with small assistance, 
if any, from our forces, have been equal to the task of 
ensuring the continued security in those areas. So I do believe 
I think we can move this forward and continue on the course 
that we are on.
    Mr. Reyes. So if at any point in the 45-day pause security 
deteriorates, what does that mean? What contingency plans do we 
have? Will you reinstate the surge?
    General Petraeus. That would be a pretty remote thought in 
my mind, for a variety of different reasons. One is the 
strategic considerations that I have explained. The other is, 
we do have the ability to move some forces around, obviously, 
and we would certainly want to do that, both Iraqi forces as 
well as our forces.
    Again, the Iraqis have now built some capability to respond 
in the form of the emergency response unit in the Ministry of 
Interior, this very substantial and very good Iraqi Special 
Operations Force Brigade, and a number of these so-called 
Special Weapons and Tactics (SWAT), but they are much more than 
SWAT teams in many cases. In Hillah, for example, it is a SWAT 
battalion. They have moved these around, and they have used 
these as required. That would certainly be the option that we 
would want to see exercised.
    Mr. Reyes. Thank you, Mr. Chairman.
    The Chairman. Thank the gentleman.
    Mr. Everett from Alabama.
    Mr. Everett. Thank you, Mr. Chairman.
    General, Ambassador, thank you very much for your service, 
for those that you lead. We appreciate your dedication to this 
country.
    General, thank you for your earlier service and some of the 
comments that you had observed in the way that this ought to be 
conducted in Iraq.
    None of us like the cost of this. If our Congressional 
Research Service (CRS) is correct, we are looking at $1 
trillion. It is right that we discuss it. It is also right that 
we, as Mr. McHugh said, we are disappointed that the Iraqis and 
other countries over there are not contributing more to this 
campaign. But if we are going to look at that $1 trillion, then 
we probably should also ask at the same time, how much is 3,000 
lives worth? How much is 30,000 lives worth?
    We have all agreed that we are fighting an enemy that is 
determined to kill Americans, and they will continue to kill 
Americans. They have been killing Americans for 20, 25 years 
prior to 9/11. While it is fair to bring that figure up, it is 
also fair to ask how much value do we place on 3,000 American 
lives or 30,000 American lives.
    Mr. Ambassador, you spoke to this in your testimony. There 
are obviously countries over there who disagree with a free 
Iraq, disagree with free elections, disagree with the fact that 
all their citizens have rights. Would you discuss in a little 
more detail some of those countries that are contributing those 
outside actors, as you have said, that are contributing, and 
also how they are contributing, if they are contributing, the 
percentage of them that may be in the country, if they are 
contributing for materials, manpower, and exactly how they are 
engaged?
    I would hope members would keep in mind that these are 
countries that do not want us to succeed in Iraq by any method.
    Mr. Ambassador.
    Ambassador Crocker. Thank you, Congressman.
    As I noted in my testimony, as one looks at Iraq's 
neighbors, the primary problem is with Iran, which, as both the 
General and I have said, is providing training, equipment, 
arms, ammunition, and explosives to radical militia elements 
that they effectively control. These are groups that target 
coalition forces, Iraqi forces, and Iraqi civilians. It is 
destabilizing to Iraq.
    Iran has stated that its policy is to support the Iraqi 
Government. In my view, if you take sort of an objective 
analysis of the Iran-Iraq relationship, that is what Iran 
should be doing, supporting the central government. Because the 
truth is no people suffered more from Saddam Hussein's regime 
in Baghdad than the Iranian people, with the sole exception of 
the Iraqis themselves. A vicious 8-year war from 1980 to 1988 
cost hundreds of thousands of lives on both sides.
    So it should be in Iran's national interest to make a sharp 
departure from the policies they are following into a 
consistency on the ground with their stated policy of 
supporting the central government. But that is not what is 
happening, and the events in Baghdad and Basra of recent weeks 
have put that into very sharp contrast.
    There was a problem with Syria, as we both noted. Foreign 
fighters, terrorists continue to infiltrate into Iraq through 
Syria. They have taken some steps to control this. But clearly 
they have not done enough. These individuals often are not 
Syrian themselves. They come from other countries in the 
region. We actually have seen some effective acts by these 
countries, in North Africa, the Arabian Peninsula and so forth, 
to take steps to ensure that their nationals do not have the 
opportunity to make that journey through Syria.
    Mr. Everett. Thank you, Mr. Chairman.
    Mr. Chairman. We will call on Dr. Snyder and Mr. Bartlett 
and then take the short break.
    Dr. Snyder.
    Dr. Snyder. Thank you, Mr. Chairman. Thank you, gentlemen, 
for being here. We consider you the Dream Team. We very much 
appreciate your service. Also, we appreciate the reality of 
being away from your family and away from your personal life 
also. We appreciate you.
    General Petraeus, do you have an exact time in your mind as 
to when Iraq became the number one priority compared to 
Afghanistan? Is there a date in your mind that you can relate 
back to when that occurred?
    General Petraeus. Sir, not in mind. I have been pretty head 
down inside Iraq for most of that time, and I am not sure who 
made that determination, when that was made.
    Dr. Snyder. I think it was on March 5, Admiral Fallon was 
testifying, sitting about where you are sitting now, as Mr. 
Spratt referred to. And one of the things he said, maybe it was 
short-timer's syndrome, I don't know, but he said he needed 
2,000 more troops in Afghanistan.
    You have talked a lot today and yesterday about conditions-
based. Here we have a combatant commander sitting down 
testifying he needs 2,000 more troops, trainers primarily, 
today in Afghanistan. How should the Congress respond to that 
kind of comment?
    General Petraeus. Well, again, you are asking the Commander 
in Iraq.
    Dr. Snyder. I assume you would say you would want the 
troops today.
    General Petraeus. Again, obviously. I don't know how the 
Congress responds. I guess the Congress weighs how much more it 
can resource. I think you are already funding an expansion of 
the Army and of the Marine Corps, I believe. Again, I have been 
sort of focused on another task.
    Dr. Snyder. The reason I asked that is because I think, 
Ambassador Crocker, in your written statement you referred to 
some would choose to walk away from Iraq. The discussions that 
we have here is, how do we resource everything we need to do? 
Part of it is when we have Admiral Fallon saying we need 2,000 
more troops today, not next month, not 6 months; today. But the 
reason that is not occurring is because Iraq is priority number 
one. Most of us aren't sure when that occurred. We don't know 
when this need for additional troops is going to be met. We 
consider Afghanistan also to be an utmost high priority for the 
United States. And yet it is not happening today. And we are 
responsible for it. You are not responsible for it. You are 
doing great at what you are doing. But we are responsible for 
it.
    I wanted to ask, in this chart here that you presented, 
this section over here, nonkinetics, this chart that you two 
presented, you list services and job programs. I didn't see any 
charts today in some of the specifics with regard to services. 
I will list topics here and you tell me if such a chart would 
be available: electricity production availability, prenatal 
care for pregnant women, vaccination rates for children five 
years of age and under, neonatal deaths, availability of clean 
and safe water, availability of sewer systems, oil production, 
oil exports.
    Would you have charts available on all of those indications 
of services available to the Iraqi people?
    Ambassador Crocker. We certainly have data available on 
some of those categories, oil production exports, electricity 
generation, and so forth.
    Dr. Snyder. One of the frustrations we have when we hear 
that things are better in a neighborhood, generally people talk 
about, we can walk through this neighborhood. But we don't know 
what is going on behind those doors. We are now five years plus 
into this. We don't know where we are at with the quality of 
life for children, for health care, for prenatal care. 
Economics I think is a very hard thing to get a handle on, as 
Chairman Skelton was talking about. There was a paucity in your 
presentation, Ambassador Crocker, on those quality-of-life 
things for the Iraqi people.
    I wanted to ask, with regard to the Provincial 
Reconstruction Teams (PRTs), which you talked about, Ambassador 
Crocker. We have a report coming out, this committee does, in 
the next couple of weeks on PRTs. I hope in your free time you 
will get a chance to read it because we would love to hear your 
comments on it. We think it is pretty thorough. What are the 
PRTs' specific objectives, and how are you measuring the 
performance of PRTs in meeting those objectives in Iraq?
    Ambassador Crocker. The PRTs have a number of objectives: 
improving local governance, improve linkages between local 
governance and the Federal Government, helping local 
governments deliver services to the people, helping them with 
budget formulation and execution. We have established what we 
call a maturity model. All PRTs are required to report 
quarterly where they are in these various categories, these 
various responsibilities. And we have developed a set of 
criteria to ensure a reasonable uniformity of standards across 
the PRTs to measure this.
    Dr. Snyder. Thank you.
    Thank you, Mr. Chairman.
    General Petraeus. Mr. Chairman, could I just put in a 
soldier's plug for the PRTs, and commander's plug, because they 
have been of enormous value to us, and they have provided 
expertise to brigade and division commanders that just is not 
resident otherwise. Given even with all the tremendous talent 
that we have, even from the reserve components, they have been 
of just enormous help to us.
    The Chairman. Thank you.
    Mr. Bartlett. Then we will have a quick break.
    Mr. Bartlett. Thank you both very much for your service and 
your honest testimony. I have a couple of brief questions that 
I hope both of you might choose to respond to.
    As we have stood up in the surge, Moqtada al-Sadr, perhaps 
in enlightened self-interest, stood down. We do not know how 
many other insurgent groups following al-Sadr's lead also stood 
down. Clearly, this kind of violence should subside and it did.
    How much of the apparent success of the surge is 
attributable to this stand-down?
    Both of you have noted that the tenuous successes are 
reversible. Is the continued stand-down of insurgent groups 
essential to the continued political improvements, dependent on 
continuation of the surge, or has there been a fundamental 
cultural change so that insurgent groups' stand-up would no 
longer be effective? Is our presence in Iraq equivalent to a 
temporary plug in a hole in the dike that, when removed, would 
result in escalating erosion and ultimate irreversible failure 
of the dike?
    We would appreciate your observations.
    General Petraeus. Well, Congressman, as I mentioned in my 
statement, the stand-downs of insurgent groups are actually 
more importantly the awakening of some insurgent groups to 
actually, actively oppose al Qaeda Iraq, and the extremist 
ideology and violence that they had brought to these local 
communities has been a very important factor, as has certainly 
the stand-down of the Sadr militia, although we did continue to 
go after the special group elements throughout that time and, 
in fact, have detained a number of them along with substantial 
quantities of weapons and documents and so forth that very 
clearly lay out the role that Iran has played, the contribution 
that Lebanese Hezbollah has played, as well, with the Quds 
force.
    To come back to the insurgent groups, the key is obviously 
the transition of them into legitimate employment, legitimate 
Iraqi security force ranks and so forth; and that process has 
been ongoing. It is most advanced in Anbar Province--still some 
more to be done there, but thousands of the Sons of Iraq, as 
they are now called, have actually transitioned in Anbar 
Province into the police, the army or into other government 
employment. And there is a comprehensive program, as I 
described, of joint Iraqi-American training in reintegration 
activities, if you will, to help them transition either to 
civilian employment, other government employment or, again, the 
20, 30 percent or so that will end up in either the Iraqi 
police or the Iraqi army.
    But it is very important that that transition take place, 
and that was one reason that I listed as one of the factors, 
the operational considerations, as we do go forward.
    Ambassador Crocker. Congressman, I think there has been a 
fundamental change that is of real significance, and it is a 
popular rejection of terrorism and violence. We saw it first 
and most clearly with the Sunni Arab population of Anbar and 
their courageous stance against al Qaeda.
    But we have also seen it among the Shi'a, and this goes 
back to August when Jaysh al-Mahdi militias tried to take 
control of one of Shi'a Islam's most holy shrines in the city 
of Karbala. There was a very substantial popular backlash 
against that militia action, and that is what led Moqtada al-
Sadr at the end of August to declare a freeze on Jaysh al-Mahdi 
activities.
    It wasn't a case so much of him taking a need to kind of 
keep his powder dry during the surge. We weren't in that area 
anyway. It was his recognition that these kinds of militia 
activities were distinctly unpopular with the Iraqi people; and 
I think we are seeing that same thing again in response to the 
actions in Baghdad and Basra. There is a degree of political 
unity behind the prime minister for taking these actions that 
spans the political spectrum, and that is because politicians 
understand that that is where the people are.
    Mr. Bartlett. Thank you, Mr. Chairman.
    The Chairman. Thank you. We will have a five-minute break 
and then we will take up Mr. Smith and Mr. McKeon. Let me ask 
the people in the audience to please remain seated until the 
two witnesses make their exit for a quick break.
    [Recess.]
    The Chairman. The hearing will resume.
    Mr. Smith.
    Mr. Smith. Thank you, Mr. Chairman.
    Thank you, gentlemen, for your testimony. I think the thing 
that we are all struggling with is the ultimate goal here is 
stability and reconciliation, and there are so many different 
factors going into that. Dr. Snyder mentioned a couple. With 
electricity, you have certainly mentioned a fair number.
    But ultimately, we are sort of looking at what the long-
term goals are and how we get there. And one of the questions I 
had is, is there any way that you figure our troop presence in 
some ways contributes to instability or makes reconciliation 
more difficult; and if so, how have you factored that into your 
plans for getting to those ultimate goals?
    General Petraeus. Well, it is very akin, Congressman, to 
the idea that in a sense we might hold them back in the 
security tasks as well. And so it is another area where we are 
constantly looking at, is this the time to allow them to get 
into the deep end and be there if necessary, but how hard do 
you need to hang on to the bicycle seat, that kind of measure. 
And we look at that across the board and in this area as well.
    But in the security arena and local governance and the 
provision of basic services and all the rest of that, we are 
keenly aware that there could be cases where they are going to 
say, well, Why should we do it for ourselves if they are doing 
it for us?
    Counter to that is this impulse that I mentioned earlier, 
that we have seen repeatedly really, which is the desire to 
exercise sovereignty and the desire to be in charge. And 
occasionally it actually pushes them to do--not more than 
occasionally; it pushes them to want to do something perhaps 
before they are completely ready to do that. And there have 
been some issues that have evolved as a result of that.
    Mr. Smith. On a different issue in the same area, do you 
think our presence motivates insurgents, or I think it clearly 
motivates Iran to cause more problems in Iraq than they 
otherwise would, because if we are not there, as I think 
Ambassador Crocker mentioned, Iran doesn't have much interest 
in Iraqi instability. But if we are there, given the conflict 
we have with Iran and the very real threats that Iran poses, 
they have to be worried about what our military would do if it 
got too secure in Iraq.
    So do you factor that in in terms of how we reach ultimate 
conciliation with Iran, and also with the various Shi'a 
factions?
    I want to throw one more question at you, and they are on 
the Shi'a factions. Because what happened in Basra and Baghdad 
recently could be simply dismissed as the government v. 
unlawful militias. But if you dig very deep down you find out 
that there is more to it. It is basically rival militias 
fighting it out.
    The Badr brigades seem to be more closely allied right now 
with the Iraqi Government, but the Badr brigades also to some 
extent are allied with Iran. So what is our long-term strategy 
there? Are we really choosing sides between the Badr brigades 
and the Mahdi army, and if so, why do we perceive that to be in 
our interest?
    Ambassador Crocker. Those are two very good questions, 
Congressman.
    With respect to Iranian activities in Iraq, my earlier 
comments were my analysis of what I think should be Iran's 
long-term strategic calculations, not what they necessarily 
are. Clearly, they are motivated to try to put pressure on us. 
That is obviously part of it. But having watched this dynamic 
for a number of years in the region, I think what the Iranians 
are doing is pursuing a policy, if you will, of Lebanonization, 
doing what they did in Lebanon. And they, in conjunction with 
Syria, have pursued a policy of backing more than one militia 
in Lebanon for the last quarter of a century.
    And we haven't been there in Lebanon as a military force 
since 1984. So I think they would be pursuing these kinds of 
efforts in Iraq.
    Mr. Smith. I am almost out of time. Could one of you 
quickly touch on the issue of the side that we are choosing in 
the Shi'a faction, and then why that is in our interest?
    Ambassador Crocker. Yes, sir. That is also a very important 
point. The way Iraqis are reading the events of Basra and 
Baghdad is the government against extremist militias. That is 
what has fused political support for Prime Minister Maliki and 
his government in a way that we just haven't seen, at least 
during the year I was there. So Iraqis themselves, Kurds and 
Sunnis, as well as most of the Shi'a, are perceiving this as 
government against Shi'a extremists.
    Mr. Smith. Thank you.
    The Chairman. Thank you.
    Mr. McKeon.
    Mr. McKeon. Thank you, Mr. Chairman.
    Thank you, General and Ambassador, for your service and 
that of all of the men and women you command that are out there 
fighting for our freedoms.
    You know, there is lots of discussion as to mistakes that 
have been made previously. I think those can be discussed 
forever. But what I would like to focus on a little bit is now 
going forward from here.
    I have a quote from bin Laden. You know, some people say 
that we should get out right away; some people say we should 
phase out; some people say we should set dates. There are lots 
of comments. But I think we have also talked about the price of 
being there and the price of leaving. And I think bin Laden 
puts a focus pretty good; he says, ``The world's millstone and 
pillar is in Baghdad, the capital of the caliphate.''
    The whole world is watching this war and the two 
adversaries, the Islamic nations on the one hand and the United 
States and its allies on the other. It is either victory and 
glory or misery and humiliation. I think he understands the 
consequences of us leaving early before we finish our mission. 
I am hopeful that the American people understand that, and I 
think they do.
    General, could you please comment a little bit on the 
morale of our troops and their families, how they feel about 
the mission?
    General Petraeus. Congressman, first of all, let me just 
say that I don't want to start off by generalizing about 
morale. I want to start off by explaining that morale is an 
individual event. And morale depends from soldier to soldier, 
and for me as well, on the kind of day that you are having out 
there in the theater. And it is a roller-coaster existence.
    Now, having said that, there is actually something called 
the mental health assessment which is done every year. The last 
one was done in the late fall, I believe it was, and after 
several years of a generalization of morale as going down, 
morale actually went up.
    We have talked about it, talked to the command, Sergeant 
Major Hill, my senior noncommissioned officer in Multi-National 
Forces Iraq (MNFI) and a long time as the same in the 101st 
Airborne Division, and a number of other commissioned and 
noncommissioned leaders and troopers; and I think it is a sense 
that they have had that they are making progress, that in a 
number of different areas where they were operating they could 
see tangible results, and that they saw the reversal of the 
ethno-sectarian violence, the progress that had been made by al 
Qaeda and so forth and so on.
    And, of course, if you feel like you are making progress, 
then I think you obviously feel better about what it is you are 
engaged in.
    Beyond that, the other indicator that we look at very 
closely, as I mentioned earlier, is reenlistment. And again I 
focus on reenlistment in theater, and it has repeatedly been 
way above what the goals are for the units that are deployed 
there.
    As I mentioned, one of the units that is there, just 
completing its third tour in Iraq, has already met its 
reenlistment goal for the entire fiscal year.
    So, again, no question about the strain, the sacrifice of 
our troopers and on their families, some of them making the 
ultimate sacrifice. But our great young men and women continue 
to raise their right hand and want to continue to serve, by and 
large, with perhaps that one population that we are concerned 
most about, which is the young captains. And again, as I 
mentioned earlier, that is something that I know that my 
service and the other services are looking very hard at to try 
to figure out how to give them some breaks and how to give them 
additional incentives to stay with this very important mission.
    Mr. McKeon. I have just a little time left. Could you 
expand on the Sons of Iraq and how that is helping us?
    General Petraeus. Well, sir, the Sons of Iraq are 
individuals. It really dates all the way back to Anbar Province 
and the first awakening which--to be fair, it started before 
the surge, but then was very much enabled by the surge because 
that enabled us to clear areas over time.
    But it started with a sheikh in Anbar Province coming to a 
brigade commander in Ramadi, saying back in October of 2006, 
Would you support us if we turned our weapons on al Qaeda 
instead of on you? And the brigade commander got that test 
question right. He pledged support.
    It took some time to build those forces, to get them going, 
to get it established. By mid-March they were ready to clear 
Baqubah, or I am sorry, Ramadi. Over time, this played out in 
other areas.
    Originally, they were not paid. Over time they did ask if 
we could pay them, because they were helping with security. We 
have lots of security contractors and now we have 91,000 more, 
called Sons of Iraq. The calculations we have done showed that 
this is a pretty good bargain, because the cost in their 
salaries per month is a lot less than the amount of vehicle 
losses that don't take place because we have this support. They 
are helping us to hold areas that have been cleared of al Qaeda 
or their insurgent allies.
    So, again, they are a very, very important component of 
this. They help with local security most of all. And quantity 
has a quality of its own in counterinsurgency operations where 
the enemy can attack anywhere and you must guard everywhere; 
and they have helped us to do that.
    They have, by the way, been targeted very heavily by al 
Qaeda, which shows the importance that al Qaeda sees, because 
they are also a manifestation of the population rejecting al 
Qaeda. And their losses have been similar, around two and a 
half to three times our losses in recent months, as al Qaeda 
has relentlessly tried to go after them, to intimidate them, to 
get them to desert their posts. And, by and large, they are 
very much hanging in there; they are fairly cohesive, tribally 
based elements.
    Mr. McKeon. Thank you very much.
    The Chairman. Ms. Sanchez.
    Ms. Sanchez. Thank you, Mr. Chairman.
    And thank you, gentlemen, for being before us today. I want 
to go back to a report that General Jones did back in 
September. And I know that the last time you were before our 
committee it had just come out and we had some discussion over 
it.
    But I think that some people have forgotten about this 
report. And in particular to General Petraeus I have a question 
or several questions with respect to what I call the 
Iraqification of Iraq, or the army, the fact that to a large 
extent it seems to me over the last 5 years or so we have been 
thinking that the way to get out of Iraq is to set up the army 
and the police forces and let them take care--get them to a 
point where we leave the country in a stabilized situation, and 
they are able to continue that stability.
    So in the September 2007 report of the Independent 
Commission on the Security Forces of Iraq, which again was 
chaired by General Jim Jones, it painted a fairly pessimistic 
outlook for Iraqi security independence. And according to the 
report the national police force was dysfunctional and should 
be disbanded; the Ministry of Interior was riddled with 
corruption and incompetence, and that it was a ministry in name 
only according to the report. It said that the Iraqi army was 
doing better, but wouldn't be capable of full operations for at 
least 12 to 18 months and was lacking in adequate weapons, 
transport, logistics, intelligence, planning capabilities.
    And, of course, I ask this question because we saw their 
performance, or their lack of performance, in the last couple 
of weeks in Basra and other areas--it wasn't very encouraging. 
And because, again, our general strategy is based on the 
capabilities of the Iraqi forces, my questions would be, in 
particular, to you, General.
    Because you spent a year in the mission of training those 
forces, my questions are first, do you agree with the findings 
of General Jones and the Commission, and where do you disagree 
and why? Have you acted on the recommendations of the Jones 
Commission and which ones of the major recommendations have you 
acted on?
    The Commission found that the Ministry of Interior, the 
national police and the border guards were heavily infiltrated 
by sectarian militias and were making little or no contribution 
to that fight. Do you agree with that assessment? What have you 
done to address these problems with the Maliki government, and 
are there any reforms that are likely to occur because of that?
    The report also asserts that the massive troop presence of 
U.S. military and its facilities creates a perception among the 
Iraqis that the U.S. forces are a long-term occupying force. Do 
you agree with that assessment and do you agree with the 
recommendation that significant reductions, consolidations and 
realignments of the U.S. forces must happen in Iraq in order 
for that perception to go away? And what friction do you see 
because of the fact that we may be looked upon as an occupying 
force to the Iraqi population?
    And last, in theory, reduction of U.S. forces should be 
possible as Iraqi army forces achieve the necessary state of 
readiness and effective independent operations. In light of 
this reality, what can be done to accelerate the process of 
training, equipping and transferring responsibility to the 
Iraqi forces? Should we devote more resources to it? What do we 
do about those who didn't fight or ran away?
    Do you agree with the Jones Commission that the Iraqi army 
is not ready to be independent in 12 to 18 months? That would 
be the end of this year. And how much of the Iraqi army do you 
believe will really be ready to operate independently within 
the time frame, that is, by December of this year?
    General Petraeus. Well, I have tried to write as quickly as 
I could, Congresswoman.
    Ms. Sanchez. I can go over them again if you would like.
    General Petraeus. Let me try to answer them if I can.
    Ms. Sanchez. You know what I am asking, General.
    General Petraeus. I do indeed.
    First of all, we have acted on a number of the 
recommendations that the Jones Commission report made, and 
frankly, we agreed with their assessment of the national police 
that it was. And I am on the record as stating repeatedly that 
the national police were hijacked by sectarian interests during 
the height of the sectarian violence and they had become a 
sectarian actor. And, in fact, every one of the brigade 
commanders, division commanders and overall commander of the 
national police were relieved, as were about 70 percent of the 
battalion commanders. In one case, by the way, the relief was 
twice in one unit.
    And they actually have--they have become net contributors 
now, rather than net consumers or net sectarian actors. And, in 
fact, if you talk to the commanders on the ground in Baghdad or 
elsewhere where there are national police operating, you will 
find that in a number of cases the national police are pulling 
their load and that the commander of the national police over 
the course of about the last 8 to 10 months has made 
substantial progress in that it has been directed by the 
Minister of Interior.
    Each brigade has gone through a reblueing process, a period 
of training where the entire brigade goes off to a training 
center and goes through intensive training. And now the Italian 
carabinieri are actually in helping units one after another to 
do additional work.
    The Ministry of Interior has worked to reduce sectarian 
influence, militia influence and so forth. This is not easy 
when you are in a situation that that ministry was in at the 
end of the sectarian violence of 2006-2007, but they have 
indeed made progress, in our assessment.
    I also brought in another team to look at some specifics, 
based on General Jone's Commission's report, and again did 
follow a number of the steps with respect to that. As General 
Dubik, the head of the training-equip mission, has been 
pursuing.
    The Iraqi army has taken over numerous areas already, as I 
have mentioned in my testimony today, and although there 
clearly were units that did not measure up and leaders that did 
not measure up in Basra--and by the way, we then, together with 
our Iraqi counterparts, provided a list of individuals that we 
thought didn't meet the mark in Basra, as well as in Baghdad; 
and also a list of those who did very well--to provide our 
input. Because they do have a leader assessment process in the 
Ministries of Defense and Interior and they will use that; and 
in some cases, the Prime Minister directed their relief.
    I also mentioned that the Iraqi Security Forces did do well 
in the face of violence that sprang up at the time of the Basra 
operation start in the southern provinces; and again they did a 
creditable job. And those are areas that have been--many of 
those have been handed off to provincial Iraqi control. One of 
the others will be handed off in the next few months.
    Again, the same is playing out in Anbar Province, of all 
places, at one time the most dangerous province in Iraq, now a 
place where a unit returned to Fort Stewart from the Army, as 
well where the concern of the infantry battalion was that many 
of them had not received combat infantryman badges because they 
hadn't been in real combat and, again, Iraqi forces stepping up 
in those locations.
    So that is, I think, a pretty quick answer, although 3 
minutes over the time.
    Ms. Sanchez. Thank you, General. And I will submit it 
further in writing so that you can get the specifics to me, 
because I am interested. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Mr. Thornberry.
    Mr. Thornberry. Thank you, Mr. Chairman.
    General, today and some yesterday, there have been calls to 
declassify recent Intelligence Community assessments. And kind 
of left hanging is this implication that there is something 
radically different in this assessment than in your public 
testimony today.
    So I guess I would just like to ask briefly, do you take 
Intelligence Community products into account in writing your 
public testimony, and is there something substantially 
different in that particular assessment from the thrust of your 
public testimony that you have given today?
    General Petraeus. We do take it into account. In fact, we 
draw very heavily, obviously, on our own intelligence 
assessments as well. But certainly take it into account. And 
there is not any difference that I am aware of, having looked 
at that fairly quickly between what that says and what we have 
said. And I am not the one who does declassification of 
intelligence documents.
    Mr. Thornberry. I understand. Let me go to, I think, maybe 
a larger point.
    General, in your testimony you talked about the gradual 
establishment of sustainable security in Iraq as vitally 
important to the citizens of the United States.
    And, Ambassador, in your testimony you said we have to be 
clear with ourselves about what failure would mean. The 
American people don't hear that sort of talk very much. What 
they hear is what happened today on the ground with this 
bombing or this suicide bomber. And that is, if something 
happened on the ground; if it is relatively quiet, they don't 
get any news.
    And I think it is important for them to hear from each of 
you why Iraq is important, what we have at stake. Not just what 
we are doing for them, but why it is important for us.
    So I would invite you both to elaborate on the comments 
that you made in your written testimony.
    General Petraeus. Well, again, Congressman, I think we have 
an enormous national interest in the security instability of 
Iraq with respect, as I have mentioned, to al Qaeda Iraq and al 
Qaeda in that particular area, the possible resumption of 
sectarian conflict that could not only engulf Iraq once again, 
but also potentially spread over Iraq's borders.
    Some of your Members have rightly noted that there is 
already a humanitarian crisis in Iraq. There are already, by 
most accounts, somewhere around two million internally 
displaced and two million others displaced out of the country. 
That could get far, far worse.
    In fact, we have seen some signs of a reversal of that, of 
the security conditions allowing some citizens to return to 
their homes and their families.
    Again, there is certainly a regional stability issue and 
there is obviously an issue in terms of the global economy with 
Iraq being the second or third most, the country with the 
second or third most oil resources in the world.
    Ambassador Crocker. Congressman, both General Petraeus and 
I have spoken about the cost of failure. I would like to spend 
just a moment on how a stable and secure Iraq could transform 
the region.
    For most of Iraq's modern history, since the 1958 
revolution, Iraq has been a negative factor for regional 
stability. And, indeed, that revolution in 1958 and our 
concerns over where it was going is what triggered the decision 
to send Marines to Lebanon. So over the course of these years, 
we saw the Iran-Iraq War; we saw the Iraqi invasion of Kuwait; 
the threat to Saudi Arabia; the Iraqi subversion in Syria, in 
Jordan, in Lebanon; kind of an unbroken saga of destabilizing 
actions or outright military invasions.
    A stable Iraq, in my judgment--and I spend a lot of time in 
this region--could be an anchor in the Arab world and the 
broader Middle East, and we could have a positive dynamic 
throughout the region that we really haven't seen for decades. 
I can't predict what the specific consequences of that would 
be, but it would be a far more positive dynamic than we have 
seen in, literally, decades.
    The Chairman. I thank the gentleman.
    Mr. McIntyre from North Carolina.
    Mr. McIntyre. Thank you, gentlemen. Thank you for your 
service to our country.
    As I mentioned to General Petraeus before the hearing 
today, I was in Iraq just 10 days ago and had the opportunity 
to meet with many of our fine men and women serving our country 
there, including General Lloyd Austin from Ft. Bragg of whom we 
are particularly proud in our area of North Carolina, and had 
opportunities also to visit detainee centers at Cropper and 
Bucca.
    I wanted to ask you, Mr. Ambassador, specifically, as we 
measure progress in Iraq, I am struck by the fact that there 
has been no discussion really today of where we stand on the 18 
benchmarks that were so widely discussed last September. The 
GAO said we had met 3, 3 out of 18 benchmarks. Can you tell us 
what your assessment is as to where we stand on those 
benchmarks?
    Having heard the testimony today that you all do not 
believe that timelines are in order, but where do we stand on 
the benchmarks.
    Ambassador Crocker. Well, actually, Congressman, I would 
state that in just about an eight-week period we saw benchmark 
legislation enacted on accountability and justice, that is, 
debaathification reform on amnesty and the provincial powers 
law with its stipulation for elections by this fall, I would 
also describe as significant benchmarks.
    We are actually going through this process right now of 
doing an updated assessment on the benchmarks. That is 
something that I expect we will have done in the next week or 
so.
    But pending that, I would say we are certainly well above 
three. I think I would say either ``achieved'' or ``significant 
progress'' on about a dozen of them.
    Mr. McIntyre. Achieved or significant progress. But as far 
as checking off the benchmark as having been achieved, can you 
tell us about how many you think that have been done?
    Ambassador Crocker. Well, again, we are going through the 
process right now and we can and will do that.
    In my testimony, as I described the legislative 
achievements, I did so in their own terms because this is 
something I said in September. You can have a situation in 
which all of the benchmarks are achieved and you still don't 
have meaningful reconciliation. You can also have circumstances 
in which relatively few of them are achieved, but you are 
getting reconciliation anyway.
    Mr. McIntyre. I know my time is limited. Excuse me.
    So you are saying, within next week you can provide us an 
assessment as to where we stand specifically on the 18 
benchmarks that the Iraqi Government agreed to meet in working 
with the U.S. Government to make sure that we are accomplishing 
the political, economic progress that we want to see in the 
country, as well as the military progress; is that correct?
    Ambassador Crocker. Yes, sir.
    Mr. McIntyre. Will you submit that to this committee within 
the next week?
    Ambassador Crocker. I will.
    Mr. McIntyre. If you will, do that in writing, please.
    Ambassador Crocker. Yes, sir.
    Mr. McIntyre. Thank you.
    And, General Petraeus, I just wanted to ask with regard to 
local police, following up on Ms. Sanchez' question, I have 
heard a continuous concern. We talked today about national 
police and also the military, and commended you for your work 
with the military and all that you have done with the national 
police.
    Can you tell us your assessment of the corruption problem 
with the local police?
    General Petraeus. Well, first of all, Congressman if I 
could just add that everybody in the Tarheel State ought to be 
very proud of the 18th Airborne Corps headquarters, Lloyd 
Austin and his great team and all the other troopers and 
Marines from Ft. Bragg and points east, that have served so 
magnificently.
    Mr. McIntyre. Thank you for your service there, too.
    Ambassador Crocker. Sir, with respect to the local police, 
they have again taken on more and more and more. And 
interestingly what is emerging as the poster child for this is 
Anbar Province. Fallujah again, one of the most dangerous 
cities in Iraq, now has no Iraqi army or military in it. It has 
10 police precincts, each of which is a gated community, 
essentially.
    They have had a Marine squad per police precinct. They are 
gradually downsizing those, so we will probably have one for 
every two for a while and then gradually reduce those. And they 
are doing a creditable job.
    There are always temptations in Iraq and there is something 
cultural, frankly, about ensuring that there is not corruption 
ongoing, and there is an effort. They have, in fact, relieved 
police chiefs, in some cases detained police chiefs in Anbar 
among other places to make sure that they are not supplementing 
their income by illicit means.
    Iraq is a country with enormous oil riches and other 
natural blessings; and again, there has to be continued effort 
to make sure that local police don't succumb to the temptations 
again to try to get their hands into some of this.
    Mr. McIntyre. Thank you.
    Thank you, Mr. Chairman.
    The Chairman. Thank you.
    Mr. Jones.
    Mr. Jones. Mr. Chairman, thank you very much.
    And to the two gentlemen at the desk, thank you for your 
leadership, your patriotism to this great Nation and all the 
good things you are trying to do for America.
    Ambassador Crocker, I want to ask you a question, but I 
don't want you to answer it right now because I have got a 
second question, and you can combine them both.
    How often do you have communications with the Iraqi 
governmental leadership, especially Prime Minister Maliki? 
Second, to what Mr. Sproul was saying, the issue and the 
reasons, which you have nothing to do but to protect the 
security of this Nation, so this was not meant toward you, his 
bringing these figures up.
    The reason is that this country right now is borrowing 
money from foreign governments to pay our bills. In the year 
2001 a gallon of 87 octane gas cost $1.42; today it is $3.35. 
In addition, in 2001 a barrel of oil was $28; today it is over 
$100.
    And I am not going on and on. But the issue is that we in 
this Congress are going to be cutting programs to help our 
elderly with health care. So we do want you, as you are trying 
to do today, to give us, as you have done, the honest 
assessment of where everything is. But the American people do 
support the troops, as we support the troops. The American 
people want to know that the Iraqi Government understands that 
we do not have treasure and blood to go on and on and on.
    And, Mr. Ambassador, the reason I bring this up is that a 
couple of your statements, as well as the General's, were very, 
very--you know, statements such as ``gains are fragile and 
reversible,'' ``cannot guarantee success, but we are closer''; 
and we appreciate those statements.
    But recently Prime Minister Maliki demanded al-Sadr to 
disband his Mahdi army, threatened to bar al-Sadr followers 
from the political process if the cleric refused; and I quote, 
``A decision was taken yesterday that no longer have a right to 
participate in the political process or take part in the 
upcoming elections unless they end the Mahdi army.''
    My question to you because of the word ``fragile,'' which I 
appreciate--and you have been very honest, ``fragile''--do you 
have conversations with Maliki? Does he take you into 
discussion as it relates to political decisions that are going 
to be forthcoming?
    Because this is the question to you: If, by chance, that he 
would bar al-Sadr's group from the political process, what 
would be the results of that?
    Ambassador Crocker. Congressman, General Petraeus and I see 
a great deal of the Iraqi political leadership. We met with 
Prime Minister Maliki, for example, I think just the day before 
we got on the plane to come back here. We also have extensive 
contacts with the other elements of the leadership, and we do 
in those contacts register our views. We consult.
    But at the same time Prime Minister Maliki is the leader of 
a sovereign government, and as we saw in Basra, he will take 
his own decisions. He did not extensively consult with us 
before that operation. We learned of it just a couple of days 
before he embarked on it.
    With respect to the Jaysh al-Mahdi, I point out that it is 
not just the Prime Minister. President Talabani, the Kurdish 
President of Iraq, yesterday also called on Moqtada al-Sadr to 
disband that militia and commit himself fully to the political 
process. And again I think this is one of the really positive 
developments we have seen that I referred to earlier, a popular 
rejection of militia, extremist terrorist violence, both Sunni 
and Shi'a. And it is reflected not only in the Prime Minister's 
call, but a position that spans the political spectrum, a 
statement issued last Saturday specifically called for the 
disbanding of militias. And that was a collective view of all 
the major political movements.
    The Chairman. I thank the gentleman.
    The gentlelady from California, Mrs. Tauscher.
    Mrs. Tauscher. Thank you, Mr. Chairman.
    General Petraeus, Ambassador Crocker, thank you for your 
service and to your families and the people that you represent. 
Gentlemen, over the last few weeks some of the national 
polling, a CBS-New York Times poll, have increasingly larger 
numbers of Americans saying, for example, looking back, do you 
think the United States did the right thing in taking military 
action against Iraq or should the United States have stayed 
out? Sixty-two percent say ``stayed out.''
    Do you favor or oppose the U.S. war in Iraq? Sixty-six 
percent say ``oppose.''
    All in all, do you think this situation in Iraq was worth 
going to war over or not? Sixty-two percent, ``not worth it.''
    Now, both of you have stated in repeated testimony that our 
withdrawal from Iraq or redeployment from Iraq is going to be 
conditions-based. Apparently that is a metric for Iraq.
    Those are not the only conditions that we have to look at; 
we have to also look at the conditions here. My constituents in 
California repeatedly tell me that they don't believe that we 
can sustain the number of troops or the treasure that we are 
expending.
    The American people, gentlemen, love their troops and 
appreciate their sacrifice, but they do not like this mission 
and they want to know what is going to happen. And we have an 
election coming forward in November and that is going to be 
significantly about this. On January 21st of 2009, if you 
report to a commander in chief that says that they want a plan 
for the withdrawal of troops in the next 60 days, what will you 
advise them?
    General Petraeus. Well, I would sit down first, 
Congresswoman; I would try to back up and ask what the mission 
is, what are the objectives, what is the desired end state. 
With an understanding of that mission, then you can state what 
resources are required.
    Mrs. Tauscher. General, if the mission is to maintain the 
security gains as best we have made during the surge, but to 
bring our troops home so that they can rest, retrain and be 
redeployable, and we can fix our readiness problem and cut the 
amount of money that we are spending in Iraq, which is $600 
billion now going to well over $1 trillion in the future, what 
would your response be?
    General Petraeus. My response would be dialogue on what the 
risk would be again. And this about risk.
    At the end of the day, let me just state up front, I 
absolutely support the principle of civilian control in the 
military. We are not self-employed in uniform. We take orders 
and we follow them. But what we want to do, of course, is to 
have dialogue within the chain of command about what the 
mission is, what the desired end state is, the objectives and 
so forth; then be able to provide the assessment of a commander 
on the ground of what we believe are the resources required. If 
they are less than that, you know, this is the risk to various 
elements; and then it is up to other folks to determine where 
they want to take the risk.
    But again, as I stated, I fully believe in, subscribe to 
and have sworn an oath to the Constitution and the concept of 
civilian control in the military.
    Mrs. Tauscher. Ambassador Crocker, considering that we will 
have a new President on January 20th and our President could 
say that they want to have you give them an assessment, for 
example, on how we spread the risk, how we spread the risk away 
from the American people and our military, who in the region 
could step up, who around the world could step up to help 
stabilize the Iraq Government and their security situation in 
lieu of our departure?
    What would you advise the President as to who could be 
available and how we would begin that engagement?
    Ambassador Crocker. Well, again Congresswoman that is 
looking fairly far into the future, and I have learned to keep 
my timelines pretty short when I am predicting things to do 
with Iraq.
    I would anticipate it would be a briefing on the efforts 
that are under way. I described, for example, the efforts we 
have made to have the United Nations more actively engaged in 
Iraq; they are.
    Our efforts with the international community, more broadly; 
again, it is noteworthy, I think, that Sweden is hosting this 
upcoming ministerial on the international compact with Iraq. It 
is the first time that a European state has stepped forward 
that was not a member of the Coalition, so, you know, we are 
trying to broaden there.
    And we have constant efforts under way in the region that, 
frankly, I wish had been a little more successful, but we will 
keep at it. And I think what I would probably be doing is 
providing an update on these sorts of things.
    Mrs. Tauscher. Thank you, Mr. Chairman.
    The Chairman. Mr. Hayes
    Mr. Hayes. Thank you, Mr. Chairman.
    And, gentlemen, thank you for being here. Please convey our 
gratitude and incredible appreciation to the men and women with 
whom you serve.
    Three questions: Number one, the Anbar model is obviously 
working, it would appear, for a number of reasons, mainly 
because tribal leaders are working with elected leaders and our 
military officials to come up with a plan that cooperates and 
works. If you would, comment on that.
    Number two, elected leaders and tribal leaders are the ones 
that can provide this timeline that everybody talks about. What 
do you see happening? How do we precipitate, how do we cause 
that to happen so that the Iraqis say, We are going to be ready 
by this date? Immediately then you can come up with a timeline 
that we need.
    And last, in the south, very significant, the Basra 
situation, you have Iraqi Shi'a battling Iranian-influenced 
Shi'a who are Moqtada al-Sadr. How do we work that out; and if 
you will, just kind of explain the dynamic of that? Because 
with Maliki taking on al-Sadr, that is pushing back on Iran, 
and people need to know about that.
    And the last comment: David Walker sat where you are 
sitting and said the benchmarks we have for Iraq are not the 
right ones. So the benchmarks of Iraqi spending money of their 
own on us, helping to fight the war against the terrorists, is 
very significant in the benchmark area.
    Thank you.
    General Petraeus. Congressman, if I could take the first 
and third and the Ambassador will take the second and the 
fourth.
    The Anbar model is a model that we have tried to apply 
elsewhere. It is a model that certainly works in an area that 
is almost exclusively Sunni Arab,with substantial tribal 
influence, and an area in which al Qaeda very clearly 
overplayed its hand, where again the population was devastated 
by what al Qaeda did to them in terms of violence, in terms of 
these oppressive practices that they implemented, not to 
mention the ideology to which they subscribe, which the people 
of the Euphrates River valley didn't embrace.
    There were reasons why they were willing to support al 
Qaeda having to do with a variety of actions early on, feelings 
of dispossession, disrespect and the like. But over time they 
came to realize what al Qaeda had done to their river valley, 
done to business, done to basic services and so forth, and 
chose to reject it; and because, again, of the relative 
cohesion of the population and the tribal structures were able 
to use that, and they were able to use it to cobble together a 
fairly coherent response to al Qaeda.
    We are applying that where we can. Again, the circumstances 
there are fairly unique so you have to adapt it to each area. 
And when you have a place where there are sectarian or ethnic 
differences, say, in Diyala Province or Ninawa, it is a bit 
more sensitive and you have got to be a little bit more 
skillful in your application perhaps, or just different in your 
application, because those in Anbar demonstrated enormous 
skill.
    With respect to Basra, again as the Ambassador mentioned 
earlier, this is, in our view, truly a decision by a prime 
minister to take on elements that were very much threatening 
the peace, rule of law, good order and so forth in Basra, that 
were carrying out acts of intimidation, including murder and so 
forth, and not just--it wasn't a purely politically inspired 
activity. It does happen that some of the most lethal elements 
associated with that militia, the so-called ``special groups,'' 
are in fact backed by Iran or trained, equipped and funded by 
them.
    So again this was a fairly courageous decision. It was a 
fairly sudden decision. It was one that came after some months 
of preparing a more deliberate approach and is still very much 
playing out. It is far too soon to say that Basra has 
succeeded, or has failed either. It is safe to say that Basra 
is going to continue for months actually, and it is a tough nut 
to crack. But the fact is that the Prime Minister has taken it 
on and his forces are grappling with that particular issue.
    Ambassador Crocker. Congressman, on the role of elected and 
tribal leaders, Iraqis, both Iraqi leaders and the Iraqi 
population at large, want to be in a position of taking charge 
of their own country and their own security. It is not a 
situation in which they are really all saying, well, let the 
Americans do it. And again, the Basra operation reflects that 
sentiment, that they should be able to do things for 
themselves. So I think clearly Iraqis are moving in that 
direction.
    But just as we look at conditions rather than timelines, so 
do thoughtful Iraqis. One thing that will be important are the 
provincial elections because you mentioned tribal and elected 
leaders. Many tribal leaders and their followers sat out the 
last election and are therefore not represented in government. 
They are not going to make that mistake this time; they have 
been very clear on that. So these elections are going to be 
important to kind of recalibrate through the voting booths who 
Iraq's leaders are at the provincial level.
    With regard to the benchmarks, the benchmarks have 
importance. We track them, and as I undertook to Congressman 
McIntyre, we will provide our assessment of where they are. But 
what they don't do, and as your suggestion implies, they simply 
don't tell the whole story. And it is important to focus on a 
number of other things.
    A key element is that which you mentioned, the ability of 
Iraq to spend its own funds on its own reconstruction and 
development, and we place a very high emphasis on that even 
though it is not a benchmark.
    The Chairman. I thank the gentleman.
    Mr. Andrews from New Jersey.
    Mr. Andrews. I thank the chairman.
    I thank the witnesses for their service to our country. 
Please thank the people you represent as well. We are very 
grateful.
    Ambassador Crocker, the words I hear, ``talk about 
transition to Iraqis running Iraq.'' But the substance I see 
looks more to me like an indefinite American occupation of 
Iraq. I want to ask you some questions about that.
    A significant though not exclusive source of the 
hostilities in Iraq are Sunni resistors who do not want to live 
in a country that is 61 percent Shiite. Iraq is a country where 
who controls the guns and the money and the power is going to 
be very, very important.
    When you were here in September, the essential argument you 
made to the American people was that General Petraeus and his 
forces would do their very best to tamp down the violence--and 
they have, and we thank them for that--and that the Iraqi 
politicians would then take advantage of that hiatus and do the 
best they could to reach political reconciliation. They have 
not.
    Let's first talk about sharing of power with the provinces, 
particularly those that are majority Sunni. There have not been 
provincial elections yet, have there?
    Ambassador Crocker. There have been provincial elections, 
one round, in which many Sunnis boycotted. The next elections 
will be this fall.
    Mr. Andrews. But there have not been meaningful provincial 
elections that vested real power in the provincial government. 
Would you agree with that?
    Ambassador Crocker. Actually, Congressman, the provincial 
governments do have significant power. That has now been 
codified in the Provincial Powers Law that was just passed by 
the parliament. The most important power they have is the 
access to resources.
    Mr. Andrews. Let's talk about resources. At this point in 
time, the most important economic resource in Iraq is oil 
revenues. The Iraqi parliament has not passed a hydrocarbon law 
since September, has it?
    Ambassador Crocker. No, it has not.
    Mr. Andrews. And, finally, a very important thing is 
control of the military and the Interior Ministry, the police. 
Now there was a deBaathification law passed by the Iraqi 
parliament and enacted into law. But it is my understanding 
that the terms of that statute say that former members of the 
Baathist party may not work in the military and may not work in 
the Interior of Ministry. Is that correct?
    Ambassador Crocker. The most senior levels of the Baath 
party.
    Mr. Andrews. Aren't the people at the most senior levels 
the one whose participation in political negotiations is the 
most important?
    Ambassador Crocker. As I said in my testimony, Congressman, 
the implementation of these laws, this one, as well as the 
others, is going to be of key importance. I would note though--
and we are still awaiting that--but I would note that these 
laws were passed in a new spirit of reconciliation that we 
would expect to see also inform the implementation of these.
    Mr. Andrews. I do understand that. I do understand that 
there is a new spirit of reconciliation. But the argument that 
was made by you in September was that a reduction in violence 
would create the opportunity for a period of real political 
reconciliation. And that was the rationale of the so-called 
surge.
    Now the record shows that there was a deBaathification law. 
But as you just said, key members, former members of the party, 
can't work in the defense or Interior Ministry, which means 
they have no access to the guns. There have been some 
provincial statutes passed. But the meaningful elections, by my 
judgment, have not occurred, and we hear it will occur by 
October 1st. We have heard that for a very long time. Perhaps 
the most important thing, which is the money, the hydrocarbon 
law has not been passed.
    Now I am not meaning to say here that not doing all those 
things since September is a mark of abject failure. But, my 
goodness, not doing them since April of 2003 sure looks like 
that. The war didn't begin in September. As far as the American 
people are concerned, it was April of 2003 when Saddam fell, 
and the forces of which General Petraeus participated did such 
a great job in making that happen.
    It is now five years. No hydrocarbon law, no meaningful 
distribution to the provinces, no deBaathification law. Why 
should the American people wait five more minutes for that to 
happen?
    Ambassador Crocker. Congressman, while there is no 
hydrocarbon law and revenue-sharing law, in fact revenues are 
being shared to the provinces. This process is ongoing. It is 
seen as equitable both in predominantly Sunni and predominantly 
Shi'a provinces. The provinces have resources because the oil 
revenues are in fact being shared. That I think is the 
important indicator.
    You talked about Sunni resistors not wanting to be part of 
the Shi'a majority country. Well, in fact as we have seen in 
Anbar, Baghdad, and elsewhere, the Sunnis have decided they 
don't want to have anything to do with al Qaeda and its 
supporters. They took a very courageous stand against them. 
That actually triggered a broader reconciliation process.
    Mr. Andrews. My time has expired. I will quickly say that 
not having anything to do with al Qaeda is one thing, wanting 
to have something to do with the new government is quite 
another.
    The Chairman. I thank the gentleman.
    The gentleman from Virginia, Mr. Forbes.
    Mr. Forbes. Thank you, Mr. Chairman. General, Ambassador, 
thank you so much for being here.
    The question I am going to ask you, you might not be able 
to answer. I just haven't found who could articulate this 
answer best. So I am going to try it on the two of you.
    Let me set it up by saying how much I appreciate what both 
of you do. The chairman and I had the privilege of spending 
Christmas Eve with both of you in Iraq this year. We thank you 
for that opportunity. I know you mentioned yesterday you 
thought your men and women that were serving there were 
America's newest Greatest Generation. That is certainly true. 
All the people we talked to, not one exception, they believed 
in what you are doing.
    I get frustrated sometimes, too, when I see charts coming 
up that suggest $1 trillion over the next 10 years. But I don't 
see a chart that talks about the fact that just the deficits we 
will have on Social Security and Medicare will be 53 times that 
amount. We talked about borrowing money. We just borrowed $168 
billion to give to people to help feel good about the economy. 
All of that, put it in a bag, shake it up, put it on the shelf.
    I want to cut to the chase on this. When I am traveling 
around, I am looking at average homemaker, factory worker, 
salesman, who have children, and they are looking and saying 
some of what you heard today. We are having to spend $3 
something for a gallon of gas. We have to make a tough choice. 
We have to spend X number of dollars for a gallon of milk. That 
is a tough choice.
    The question they are trying to grapple with inside is, how 
come it is worth $608 billion for them and their family to 
spend in Iraq for safety and security?
    General, I want to preface it by, yesterday, I think your 
response to Senator Warner was--when he asked you, were we 
safer in America because we are in Iraq, and you said, yes. The 
result of the question though, I want to also ask, if we 
prematurely pull out of Iraq, are we less safe in America? When 
we talk about things like we just mentioned earlier, enormous 
national interest, al Qaeda strengthening in Iraq, sectarian 
violence, all those things people say, that is wonderful; we 
support them, but is it worth $608 billion? How do we answer 
the housewife, factory worker, whatever, and say, this is why 
it is important to you that we spend these moneys and do this 
fight?
    General Petraeus. Again, I think that what happens in Iraq 
has ripple effects that certainly will ripple all the way right 
into the United States. If there is a disruption to the oil 
flow, just as an example--which is, by the way, flowing quite 
well out of Iraq, and they have exceeded their goals for oil 
export on top of course what they are getting paid for it--but 
would find an even higher price at the gas tank.
    If there are, again, if there is widespread regional 
instability and all the rest of that, again, the repercussions 
eventually will be felt in the United States. More immediately 
of course is the impact of al Qaeda being able to a establish a 
base there from which it could then project trained and 
possibly equipped terrorists that, again, eventually all has an 
impact, as it has in the past, on the United States and on our 
own citizens.
    So, as I have stated here this morning and said yesterday 
before the committees, we have an enormous interest in doing 
all that we can to get this right. It is of huge importance to 
our country.
    Mr. Forbes. Ambassador.
    Ambassador Crocker. I would just add to that, Congressman, 
I was in Lebanon in the early 1980's, and when we withdrew our 
Marines from Lebanon in early 1984 after the Marine barracks 
bombing in October of 1983, countries in the region made some 
judgments about what the United States was willing to do in 
Iran. Iran and Syria in particular made some judgments, and 
those judgments, which I think were incorrect judgments, 
continue to inform their actions today, over a quarter of a 
century later.
    Were we to take the decision to disengage from Iraq without 
regard to the conditions and the consequences, the region and 
indeed the world would also come to conclusions about the will 
of the United States that I think would have some very grave 
consequences, not just in Iraq but for U.S. interests more 
broadly.
    The Chairman. Thank you. We will have to close this hearing 
at 12:30 for the staff to prepare for the 1 hearing that we 
have scheduled. We will do our best to get as many in between 
now and then.
    General, we thank you for your patience with us.
    Ms. Davis.
    Mrs. Davis of California. Thank you, Mr. Chairman. Thank 
you to you, General, Mr. Ambassador, and really to all the men 
and women who are sacrificing along with you today.
    I wanted to just ask you for a minute about the Status of 
Forces Agreement (SOFA). Mr. Ambassador, you referenced that in 
your remarks, and I know also at the Senate hearing yesterday 
it was mentioned, and that the Iraqi Parliament would have an 
opportunity to vote, as I understand it, on the Status of 
Forces Agreement negotiated by the executive branch and the 
government of Iraq, while the United States Congress would not. 
That strikes people in our districts as strange. I wonder if 
you could please comment on that. Why would we not have a say 
in that as being proposed?
    I wonder if you could also talk about how it is being used 
as leverage in moving us to the outcomes that we are looking to 
in moving our troops out of Iraq.
    Ambassador Crocker. It is our intention to negotiate the 
Status of Forces Agreement basically as we have done with some 
80 other similar agreements with different countries. Each one 
of those agreements has both its unique aspects and also 
broadly similar stipulations as well that are shared among the 
agreements.
    This one will have as its unique aspects the authorities 
and protections that our forces would need to continue 
operations after the end of the year. But it is our intention 
that this will be negotiated as an executive agreement, as all 
the other SOFAs are. We have had only one SOFA, and that is 
with NATO, that has risen to the level of requiring Senate 
advice and consent because it does have explicit security 
commitments in it.
    We do not intend for this Status of Forces Agreement to 
rise to that level. So it will not trigger the treaty 
ratification process. Iraq has its own system, and I would say 
at this point it is not clear exactly how that will play out, 
whether this agreement would actually go to the Council of 
Representatives for a vote or whether it would simply be read 
to the Council of Representatives. We will handle this 
certainly within the context of our own system.
    Mrs. Davis of California. Do you see this as a vehicle for 
leverage that would actually bring about a result that would 
not occur were it not for the agreement? Can you think of an 
instance in which that is true, and are we using that leverage 
appropriately?
    Ambassador Crocker. I am sorry, ma'am. Could you repeat 
that?
    Mrs. Davis of California. I am interested in knowing how we 
would use that Status of Forces Agreement for leverage; that 
some Iraqi actions have to take place in order for us to move 
forward with that kind of an agreement that would provide the 
kind of security that they are looking for.
    Ambassador Crocker. Well, I think, like other agreements, 
it is a question of mutual interest. We both have interests in 
this process in ensuring that our forces do have the 
authorities after the expiration of the Security Council 
Resolution to continue operations. So it is not a question I 
think so much of having something to give to them that we 
should expect payment, as it were, for. I think it is simply 
moving our relations to a more normal level while still 
ensuring that we have got the authorities we need. I think that 
is the benefit in it for us.
    Mrs. Davis of California. I think that people would look at 
this, and perhaps it is another way of explaining it, but this 
is a unique situation that we are in. I think that the public 
believes that there is some role that we should be playing to 
at least be a greater part on consultation on that agreement.
    I wonder, just very quickly, going back to the Awakening 
Councils, because I think that we have had an opportunity to 
look at that as a very positive force. You can interpret it 
that way, but I think others are concerned that the 80 percent 
or so of individuals that are not going to be included in 
either the army or the police, that that perhaps marriage of 
convenience that has occurred is going to shift back and that 
we are not developing the kind of strategic security there that 
we need. Is that a great concern to you?
    Ambassador Crocker. Actually, Congresswoman, we have had 
that discussion with the prime minister and other senior 
officials. Twenty to thirty percent, as you say, should be 
integrated into the security forces. The prime minister is 
committed to ensuring that the remainder receive employment in 
the civilian sector, is committed to job training programs and 
employment opportunity.
    So the intention is that, over time, all of these 
individuals will be receiving gainful employment, just not all 
of them in the security field.
    The Chairman. I thank the gentlelady.
    Mr. Wilson.
    Mr. Wilson. Thank you, Mr. Chairman.
    General, Ambassador, thank you very much for your service. 
It is with heartfelt thanks that I have for our service members 
and the civilians who are serving in Iraq and the region 
protecting American families. I say this as a veteran of 31 
years in the Army Guard, as the parent of four sons who serve 
in the military, and as a grandparent. I am particularly 
grateful--my oldest son served for a year in Iraq. I am so 
grateful for him. This weekend, he and his wife Jennifer will 
have their first son. Michael McCrory Wilson will be born this 
weekend.
    Additionally, when I visited with you last month, I had the 
privilege of visiting with my son who is a doctor in the Navy. 
He arrived back home with his three children under five on 
Easter evening. So it has been an extraordinary time for our 
family. Our family understands the best way to protect American 
families is to beat the terrorists oversees. The best way to 
win the war is to have victory, and not bring the war home.
    So I really appreciate, again, what you are doing. I 
believe the enemy have a clear plan. And I really refer to 
Zawahiri, the al Qaeda spokesman for Osama bin Laden, on July 
9, 2005, came up with the plan: The first stage, expel the 
Americans from Iraq. The second stage, establish authority in 
Iraq. The third stage, extend the jihad waive to the secular 
countries neighboring Iraq. That would mean Saudi Arabia. It 
would mean Turkey. It would mean Egypt. It would mean the 
Persian Gulf states of Qatar, Bahrain, Kuwait, United Arab 
Emirates (UAE), Dubai. And then the fourth stage, the clash 
with Israel, that is the extermination of the people of Israel.
    Now if al Qaeda achieves their goals, it is my view that 
they would, after the extermination of the people of Israel, 
after the conquest of the region, will they attack America 
again, or will they be satisfied with the fruits of what they 
have stolen?
    Ambassador Crocker. Congressman, that is exactly why a base 
in Iraq is so important to al Qaeda, to be, as I said, and as 
you have just quoted from Zawahiri, a base in the Arab world. 
The reestablishment of the caliphate, according to their 
ideology, is an essential goal.
    I spent a lot of time thinking about al Qaeda. I was in 
Pakistan for two-and-a-half years. That is where I first had 
the pleasure of meeting you. It is my judgment that al Qaeda 
will seek the space and find the opportunity to strike again 
after us, if they possibly can.
    So while I would not disagree with Zawahiri's analysis, I 
would not be confident that al Qaeda would take it in phases. I 
think once they have, if they can get a secure base, I would 
assume that they are going to use that to plan attacks in 
different spheres. They may not go from A to B to C to strike 
at us. We could come right after A. That is why it is so 
essential to see that they do not reestablish themselves in 
Iran.
    Mr. Wilson. Additionally, a statement I would like to make 
is, we have a radio talk show host at home who is extremely 
articulate, who is very supportive of you, General Petraeus; of 
you, Ambassador Crocker. His name is Keven Cohen. He has stated 
that every day that there's not an attack on the United States 
is a day of success.
    So I want to thank you for the days, years of success that 
we have had. I believe it is because of the commitment of the 
American men and women, military and civilian, who have put 
their lives on the line. I have visited in the region 10 times 
now. Every time I go, I am so encouraged by the young people I 
meet, of all ranks, who are very supportive of our efforts to 
protect American families by defeating the terrorists oversees.
    I just want to thank you so much for what both of you and 
your personnel have done for our country. God bless you.
    Ambassador Crocker. Thank you, sir.
    The Chairman. Thank you very much. We will have to close 
our hearing out. We will begin the 1 hearing with Mr. Marshall 
and proceed from there on with those that did not have the 
opportunity to ask questions at this hearing.
    Gentlemen, we thank you for your testimony, we thank you 
for your service. We appreciate it. We appreciate your 
leadership, and those fine young people that serve under you. 
Thank you, again.
    [Whereupon, at 12:33 p.m., the committee was adjourned.]
?

      
=======================================================================




                            A P P E N D I X

                             April 9, 2008

=======================================================================

      
?

      
=======================================================================


              PREPARED STATEMENTS SUBMITTED FOR THE RECORD

                             April 9, 2008

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T5256.001
    
    [GRAPHIC] [TIFF OMITTED] T5256.002
    
    [GRAPHIC] [TIFF OMITTED] T5256.003
    
    [GRAPHIC] [TIFF OMITTED] T5256.004
    
    [GRAPHIC] [TIFF OMITTED] T5256.005
    
    [GRAPHIC] [TIFF OMITTED] T5256.006
    
    [GRAPHIC] [TIFF OMITTED] T5256.007
    
    [GRAPHIC] [TIFF OMITTED] T5256.008
    
    [GRAPHIC] [TIFF OMITTED] T5256.009
    
    [GRAPHIC] [TIFF OMITTED] T5256.010
    
    [GRAPHIC] [TIFF OMITTED] T5256.011
    
    [GRAPHIC] [TIFF OMITTED] T5256.012
    
    [GRAPHIC] [TIFF OMITTED] T5256.013
    
    [GRAPHIC] [TIFF OMITTED] T5256.014
    
    [GRAPHIC] [TIFF OMITTED] T5256.015
    
    [GRAPHIC] [TIFF OMITTED] T5256.016
    
    [GRAPHIC] [TIFF OMITTED] T5256.017
    
    [GRAPHIC] [TIFF OMITTED] T5256.018
    
    [GRAPHIC] [TIFF OMITTED] T5256.019
    
    [GRAPHIC] [TIFF OMITTED] T5256.020
    
    [GRAPHIC] [TIFF OMITTED] T5256.021
    
    [GRAPHIC] [TIFF OMITTED] T5256.022
    
    [GRAPHIC] [TIFF OMITTED] T5256.023
    
    [GRAPHIC] [TIFF OMITTED] T5256.024
    
    [GRAPHIC] [TIFF OMITTED] T5256.025
    
    [GRAPHIC] [TIFF OMITTED] T5256.026
    
    [GRAPHIC] [TIFF OMITTED] T5256.027
    
    [GRAPHIC] [TIFF OMITTED] T5256.028
    
    [GRAPHIC] [TIFF OMITTED] T5256.029
    
    [GRAPHIC] [TIFF OMITTED] T5256.030
    
    [GRAPHIC] [TIFF OMITTED] T5256.031
    
    [GRAPHIC] [TIFF OMITTED] T5256.032
    
    [GRAPHIC] [TIFF OMITTED] T5256.033
    
    [GRAPHIC] [TIFF OMITTED] T5256.034
    
?

      
=======================================================================


                   DOCUMENTS SUBMITTED FOR THE RECORD

                             April 9, 2008

=======================================================================

      
      
    [GRAPHIC] [TIFF OMITTED] T5256.035
    
    [GRAPHIC] [TIFF OMITTED] T5256.036
    
    [GRAPHIC] [TIFF OMITTED] T5256.037
    
    [GRAPHIC] [TIFF OMITTED] T5256.038
    


      
=======================================================================


              QUESTIONS SUBMITTED BY MEMBERS POST HEARING

                             April 9, 2008

=======================================================================

      
                   QUESTIONS SUBMITTED BY DR. GINGREY

    Dr. Gingrey. A number of Members of the House Armed Services 
Committee, primarily of the majority, including our distinguished 
Chairman, have expressed serious concerns about the adverse effects of 
this prolonged commitment to Operation Iraqi Freedom on the readiness 
and morale of our troops, especially in light of inevitable future 
military conflicts in other parts of the world. They are implying, and 
in some cases directly stating, that it is time to bring them home in 
mass, without further regard to the political or security situation in 
Iraq so that the troops can be rested, reequipped, and reset. If 
Congress forces this premature exit based on politics and public 
opinion at home, despite the unquestioned progress on the ground (which 
gives hope and likelihood of ultimate victory), what effect would this 
have on the morale of our troops as they are deployed into the next 
conflict well rested, well equipped, and fully reset?
    General Petraeus. Our troopers are rightly proud of all that they 
have helped accomplish in Iraq. They are also governed by discipline, 
and we can count on them to well and faithfully execute whatever 
missions they are assigned or orders they are given.
    Dr. Gingrey. During those two days of hearings in the Senate and 
House, you have heard time and again the concern of some Members that 
the reduction in violence that General Petraeus has reported has not 
been matched by political progress, and that we need to drawdown or 
completely withdraw in order to compel the Iraqis to make political 
progress.
    Ambassador, has there been measurable political progress--has the 
Iraqi government passed any laws? Do any of these laws affect political 
reconciliation? Are our troops in the way of political progress?
    Is the Iraqi political process helped or hampered by our troop 
presence?
    What would happen politically if our troops left tomorrow?
    Ambassador Crocker. As of April 2008, Iraq's Council of 
Representatives (CoR) has formulated, vigorously debated, and passed 
legislation dealing with issues of reconciliation and nation building. 
These include the Accountability and Justice Law, the 2008 Budget, the 
Provincial Powers Law, and the Amnesty Law. The CoR is dealing with 
complex issues in a more practical manner, through compromise and 
greater flexibility in political groupings.
    The CoR passed the Law on Accountability and Justice (also known as 
the de-Baathification reform law) in January 2008. This law prescribes 
solutions for two important issues for former members of the Baath 
party: employment and retirement. It allows an estimated 36,000 former 
members to return to government employment. In conjunction with 
amendments to the Unified Pension Law, it also restores pension rights 
to former civil servants and military officials without regard to 
former party affiliation.
    On February 13, the CoR passed the Provincial Powers Law, the 
Amnesty Law, and the 2008 budget in an omnibus package resulting from 
political compromises by Iraq's main political blocs. The Provincial 
Powers Law is a major step forward in defining the relationship between 
the federal and provincial governments. This law will enter into effect 
after provincial elections are held. Success in defining provincial 
powers could add momentum to the broader political process and 
encourage progress on hydrocarbons legislation and other key issues, 
such as constitutional reform and disputed internal boundaries.
    The Amnesty Law provides for the release of Iraqi detainees held in 
Iraqi government detention facilities who have not yet been charged 
with or convicted of a crime. As the majority of persons held in 
detention by the government of Iraq are Sunni, the law is widely seen 
as a gesture to the Sunni community intended to foster national 
reconciliation. On March 2, regional committees began accepting 
applications for amnesty releases.
    The Coalition troop presence supports the Iraqi political process 
and plays a crucial role in the Prime Minister's initiative to develop 
Iraqi Security Forces (ISF) and assume the lead in security for the 
Iraqi people. Most significantly, Coalition forces contribute to the 
security and stability that is a prerequisite for political progress 
and reconciliation in Iraq. Additionally, Coalition forces help further 
the political process by preparing the Iraqi Security Forces to take on 
additional security responsibilities, allowing them to provide the 
long-term security necessary for Iraq's continued political 
development. Thus, U.S. troops remain a key stabilizing factor in Iraq; 
Coalition forces also play an important role in targeting al-Qaeda in 
Iraq and other extremists.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. MURPHY

    Mr. Murphy. According to information provided by the Army and 
Marine Corps to the office of Representative Altmire, at least twelve 
service members have died in Iraq as a result of accidental 
electrocutions since 2003. On January 2, 2008 Staff Sergeant Ryan 
Maseth of Shaler, Pennsylvania, was electrocuted while taking a shower 
in his living quarters in the Radwaniyah Palace Complex (RPC) in 
Baghdad. Recent news reports and statements from the Department of 
Defense in response to Staff Sergeant Maseth's death indicate that a 
lack of government oversight and poor contract management may have 
contributed to accidental deaths or injuries of U.S. personnel serving 
overseas. Since 2003 when the first accidental electrocution death was 
reported, how many deaths or injuries from accidental electrocutions of 
military and contract personnel in Iraq, as well as any other military 
installation, have occurred? Did the Army or Defense Contract 
Management Agency (DCMA) actually fund Kellogg, Brown and Root 
Services, Inc. (KBR) to perform electrical repair work at the RPC 
complex, prior to the death of Ryan Maseth? What were the dates of this 
contract? Did KBR submit reports documenting safety hazards relating to 
the improper grounding of electrical devices at the RPC complex? Did 
KBR receive 3.2 million under ACL07-139-D9-005 to repair deficiencies 
identified in KBR's Feb. 10, 2007 technical inspection report? What 
measures have the Department of Defense and its affiliates taken to 
ensure proper safety and code enforcement by contractors operating in 
Iraq, specifically KBR, in eliminating issues of electrical safety 
hazard since 2003?
    General Petraeus. Since 2003 when the first accidental 
electrocution death was reported, how many deaths or injuries from 
accidental electrocutions of military and contract personnel in Iraq, 
as well as any other military installation, have occurred? According to 
safety records maintained by the Multi-National Corps-Iraq (MNC-I) 
Safety Office and U.S. Army Combat Readiness Center, between September 
2003 and May 2008 eleven military personnel and two contractor 
employees died due to accidental electrocutions in Iraq. The same 
records show two Soldiers died in the United States and one in Germany 
by accidental electrocution. The 13 recorded deaths due to accidental 
electrocution in Iraq occurred under the following circumstances: five 
died from contact with power distribution lines, two installing 
communications equipment, two performing maintenance on generators, two 
taking a shower, one while power washing equipment, and one while 
swimming. The only two events that occurred inside billeting facilities 
(both while taking a shower) were on different bases in Iraq and 
occurred 3-1/2 years apart (May 2004 and January 2008).
    Did the Army or Defense Contract Management Agency (DCMA) actually 
fund Kellogg, Brown and Root Services, Inc. (KBR) to perform electrical 
repair work at the RPC complex, prior to the death of Ryan Maseth? Yes, 
the Army funded KBR to perform maintenance as part of a contract 
modification under the Logistics Civil Augmentation Program. The funds 
were for limited maintenance to include electrical repairs initiated by 
customer service order requests.
    What were the dates of this contract? The contract modification was 
made using a ``change letter'' that was issued on 23 February 2007.
    Did KBR submit reports documenting safety hazards relating to the 
improper grounding of electrical devices at the RPC complex? Yes, KBR 
submitted reports documenting potential grounding issues. It is my 
understanding that, prior to the 23 February 2007 contract 
modification, KBR conducted only limited technical inspections of the 
RPC complex. The last inspections were performed on 10 February 2007. 
These inspections revealed no deficiencies related to the water pump 
contributing to SSG Maseth's death but did indicate other grounding 
issues.
    Did KBR receive $3.2 million under ACL07-139-D9-005 to repair 
deficiencies identified in KBR's Feb. 10, 2007 technical inspection 
report? KBR received an estimated $3.2 million pursuant to the 23 
February 2007 contract modification in order to perform maintenance 
services.
    What measures have the Department of Defense and its affiliates 
taken to ensure proper safety and code enforcement by contractors 
operating in Iraq, specifically KBR, in eliminating issues of 
electrical safety hazard since 2003? Multi-National Force-Iraq is 
currently reviewing facilities maintenance electrical standards and 
incorporating changes into our theater support contracts to help insure 
proper electrical safety standards. The Defense Contract Management 
Agency (DCMA) has directed KBR to implement a theater-wide, full 
technical inspection of all maintained facilities where no prior 
inspection was performed. Additionally, DCMA directed KBR to perform 
life, health, and safety inspections on all other maintained buildings 
to begin any necessary repairs. The MNC-I Safety Office has issued 
several safety alerts on electrocution hazards. Additionally, the Army 
Sustainment Command has made annual improvements to the contract 
statements of work based on lessons learned to insure electrical 
safety.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MRS. DRAKE

    Mrs. Drake. What have the operations in Basrah done to bolster 
Maliki's role as a nationalist leader? How have various segments of the 
Iraqi population--meaning, Shi'a, Kurdish, and particularly Sunni--
reacted to his decision to take on criminal elements in the third 
largest Iraqi city? How do you think Iranian leaders have changed their 
view of Maliki, if at all?
    Can you give us your thoughts on Iran's role/actions should 
American forces withdraw over the next year? How do you see that 
situation playing out?
    Ambassador Crocker. The Iraqi decision to combat entrenched militia 
groups in Basrah has major significance. First, a Shi'a majority 
government, led by Prime Minister Maliki, has demonstrated its 
commitment to taking on criminals and extremists regardless of 
sectarian identity. Second, Iraqi security forces led such operations 
not only in Basrah but in towns and cities throughout the South, as 
well as in Sadr City. The operation in Basrah has also improved the 
standing of Prime Minister Maliki as a national leader. The efforts of 
the government against criminal groups and extremist militia elements 
have broad political support, as a statement on April 5th by virtually 
all of Iraq's main political leaders--Sunni, Shia and Kurd--made clear.
    Iran continues to pursue its goals by simultaneously providing 
support to the GOI and militant Shia groups. Predicting Iranian 
behavior in the event of a U.S. troop drawdown is difficult, and would 
be contingent on a number of factors, including: the ability of Iraqi 
Security Forces (ISF) to confront Iranian backed extremists; the GOI's 
delivery of essential services and promotion of economic development, 
especially in provinces with a Shi'a majority; and, Iraq's continued 
reintegration into the region. While the GOI has made tremendous 
strides on all of these fronts, a premature withdrawal of Coalition 
Forces could undermine these efforts.
    Mrs. Drake. General Petraeus, from what I have seen, the operations 
in Basra were conducted largely with Iraqi ground forces utilizing 
American and British air support. As Iraqi forces throughout the 
country begin to mature, how do you see the U.S. military role 
evolving? What types of support will we be asked to provide? What types 
of logistic and ``enabling'' capabilities can the Iraqi forces provide, 
and what is the timeline for development of these capabilities?
    General Petraeus. As Iraqi Security Forces (ISF) mature, Coalition 
Forces are transitioning from leading operations, to partnering with 
Iraqi Forces, to providing overwatch. As this evolution occurs, we are 
seeing the ISF assume increased responsibility, as highlighted by 
recent ISF security operations in Basra, Mosul, and Sadr City. 
Concurrently, the security ministries--the Ministry of Defense, 
Ministry of Interior, and the Counter-Terrorism Bureau--are improving 
their institutional performance to enable Iraq to assume greater 
responsibility for force management functions, which include the 
generation of new forces and the replenishment and sustainment of 
forces already in the fight. Despite this progress, the ISF are still 
dependent on Coalition Forces for enabling capabilities in a number of 
key areas, including: logistics support, close air support, air weapons 
teams, communications, and intelligence, surveillance, and 
reconnaissance support.
    As we help the ISF to become more capable and more independent, our 
focus is increasingly moving beyond growing the force to the 
development of military and police enablers. In the military, the 
expansion of enablers will focus on logistics, aviation, intelligence, 
and command and control. In the police forces, efforts will center on 
facilities, logistics, leadership, internal affairs, and forensics. We 
are seeing improvement in each of these areas. As an example of 
progress in logistics, the Ministry of Defense now has at the Taji 
National Depot a facility to refurbish and repair light wheeled 
vehicles. Over time, this capability will extend to include heavy and 
tracked vehicles. The Depot also has a superb small arms repair and 
maintenance facility that will be opened in May 2008. Simultaneously, 
the Ministry is establishing ``Location Commands''--regional centers 
that will serve as both supply distribution hubs and maintenance and 
recovery centers. Though these actions represent significant progress, 
more work needs to be done. The development of combat enablers requires 
complex, interrelated actions at various levels of command as well as 
across the domains of doctrine, training, organization, logistics, 
materiel, personnel, and facilities. In addition, progress is also 
dependent on the security situation and other factors. Because of this 
complexity, it is difficult to set a timeline on the attainment of 
complete self-sufficiency.
    Mrs. Drake. General Petreaus and Ambassador Crocker, What have the 
operations in Basra done to bolster Maliki's role as a nationalist 
leader? How have various segments of the Iraqi population--meaning, 
Shi'a, Kurdish, and particularly Sunni--reacted to his decision to take 
on criminal elements in the third largest Iraqi city? How do you think 
Iranian leaders have changed their view of Maliki, if at all?
    General Petraeus. The Iraqi-led security operations that Prime 
Minister Maliki directed in Basra bolstered his standing as a strong, 
nationalist leader, as the Iraqi public saw him taking a decisive stand 
against criminal gangs and illegal militias. Perhaps the greatest 
improvement in the Prime Minister's standing has come in the way in 
which other Iraqi political parties and leaders now view him. With the 
exception of the Sadrists, major Iraqi political leaders almost 
unanimously supported his move to reestablish the rule of law in Basra. 
The Prime Minister's action against illegal elements, without regard to 
sectarian identity, had a significant impact on Shi'a, Kurdish, and 
Sunni leaders, and the operations led to a reopening of talks on 
stalled political issues such as the Hydrocarbons Law and the return of 
the Sunni Tawafuq Front to the government--though much work remains on 
both of these matters. Still, as Ambassador Crocker stated in his 
Congressional testimony in April, Basra operations have resulted in a 
significant change in tone toward Prime Minister Maliki and the 
government.
    The Iranian regime's lack of transparency makes it difficult to 
know with certainty how Iranian leaders' views of Prime Minister Maliki 
may have changed since the Basra operations. The Iranian regime's 
statements indicate that the regime has chosen to support publicly the 
Prime Minister's campaign against criminal gangs and illegal militias. 
At the same time, the Iranian Government has continued to provide 
lethal assistance to Special Groups and various reports indicate that 
training, funding, and arming of the Special Groups is ongoing in Iran. 
Given the latter, it is unlikely the Iranian regime has viewed the 
Prime Minister's actions against Special Groups criminals with favor. 
In addition, the confrontation between the Iraqi Government and 
Iranian-backed militias in Basra and Baghdad has led Iraqi leaders to 
repeatedly and directly confront the Iranian regime regarding its 
support of illegal militias inside Iraq. This cannot be a comfortable 
development for the Supreme Leader and the element he employs to 
determine and execute policy in Iraq--the Islamic Revolutionary Guard 
Corps-Qods Force.
    Mrs. Drake. General Petreaus and Ambassador Crocker, Can you give 
us your thoughts on Iran's role/actions should American forces withdraw 
over the next year? How do you see that situation playing out?
    General Petraeus. If U.S. forces were to withdraw from Iraq over 
the next year, Iran would likely seek to exploit gaps in security and 
governance capacity to achieve its strategic goals in Iraq. Iranian 
President Ahmedinejad has said that if a power vacuum develops in Iraq, 
Iran is ready to ``fill the gap,'' and we believe him. Iran's goals in 
Iraq include a Shia-dominated government that is not a future threat to 
Iran and that is subject to influence by Iran; as Ambassador Crocker 
has observed, Iran wants to ``Lebanonize'' Iraq. Iran also seeks 
economic relations that benefit Iran and unhindered access to Shia holy 
sites.
    The most likely scenario over the next year is that Iran's leaders 
will continue to covertly fund a wide array of diverse, often competing 
Iraqi groups and actors. In addition to training, arming, funding, and 
directing Shi'a militia ``Special Groups,'' Iran will likely attempt to 
influence Iraqi political processes and outcomes through funding 
candidates and parties. Economically, Iran will likely continue to 
exploit the lack of competition to remain Iraq's largest trading 
partner. It is also likely Iran will attempt to increase its soft power 
in Iraq by further proliferating front companies that are clandestinely 
operated by elements of the Iranian regime--especially the Islamic 
Revolutionary Guards Corps-Qods Force--and by expanding its already 
ongoing intimidation campaign against select members of the Iraqi 
government and against any significant opponents of Iranian influence 
in Iraq. (Two governors and two police chiefs were assassinated in 2007 
using Iranian-made explosively formed penetrators.)
    In a worst case scenario, should U.S. forces withdraw over the next 
year, Iraq would not have adequate strength in its government or 
security forces to resist Iranian influence and manipulation. In this 
context, Iran would likely seek to replicate the role it has played in 
Lebanon by funding and supporting a proxy militia that conducts violent 
attacks, perpetuates political instability, and inhibits economic 
progress. It is likely to train, equip, and fund such forces in any 
event--and when the force creates problems, Iran would then rein it in.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MR. WITTMAN

    Mr. Wittman. General Petraeus and Ambassador Crocker, part of the 
National Strategy for Victory in Iraq called for an increased role in 
inter-agency assistance to the military. How satisfied are you with the 
inter-agency role/assistance and how do you measure the effectiveness? 
Can you share some success stories?
    General Petraeus. There has been significant progress in inter-
agency cooperation in Iraq, but we continuously seek to develop 
additional mechanisms for enhancing our collaboration. The complexity 
of today's national security challenges is such that no single agency 
or department has all of the requisite resources, authority, or 
expertise to single-handedly provide effective responses. Interagency 
collaboration is imperative to successfully leveraging the capabilities 
resident in the US government. In Iraq, we see that agencies and 
departments are increasingly working together to clarify lines of 
authority and improve coordination of interagency operations in a 
timely and efficient manner. We measure effectiveness in terms of both 
improved processes as well as outcomes. Examples of success stories 
include our Joint Campaign Plan, fusion cells, and reconstruction 
teams. Our Joint Campaign Plan, has helped foster collaboration and 
unity of effort across the four lines of operation in Iraq: security, 
economic, political, and diplomatic. Our periodic Campaign Assessment 
and Review Boards, which are internal reviews of the campaign plan with 
interagency participation, help us to ensure that the different 
components of our effort in Iraq are mutually reinforcing and achieve 
maximum effect. The creation of fusion cells has also been a success 
story. These entities enable the capacity which MNF-I can bring to bear 
to be combined with interagency expertise to make progress on a number 
of important issues. As an example, the focused efforts of the Energy 
Fusion Cell have helped Iraq to make significant improvements in its 
energy sector. Partially due to the efforts of this cell, oil 
production and exports are at record levels. Production in the month of 
May 2008 should be at the highest level it has been since 2004, and 
production over the last four months has been the highest since the 
beginning of Operation Iraqi Freedom. The focus of this cell has also 
been key in improving Iraqi power generation, which has now increased 
beyond the level that was produced before the beginning of Operation 
Iraqi Freedom. In fact, energy production over the past year has 
averaged 10% higher than the previous year, despite a drought that has 
left Iraq with much less hydropower (some 450 to 850 megawatts less). 
Reconstruction teams are a third success story. As a result of the 
civilian surge, there are now 31 Provincial Reconstruction and 
Provincial Support Teams in Iraq supporting all 18 provinces. These 
interagency teams play an invaluable role in strengthening governance 
at the local, municipal, and provincial levels by providing assistance 
to help create jobs, deliver basic services, and build up local 
economies. These teams are also helping Provincial governments to spend 
their money more effectively, and they are providing support to 
reconciliation efforts at all levels.
    Mr. Wittman. General Petraeus and Ambassador Crocker, it appears 
that our ``surge'' plan has worked or progressed quite well as seen by 
the improvements in the security environment, but this increase in 
security can also be attributed to Muqtada al-Sadr keeping his Shiite 
militia at bay during this period. As soon as he turned his militia 
loose, the environment became dangerous, and he has since pulled his 
militia back. Is there a plan for keeping al-Sadr at bay? How do you 
control him?
    General Petraeus. Of greater long-term importance than Moqtada al-
Sadr's specific decisions are the factors that shape the environment in 
which his movement exists. The ceasefires declared by Moqtada al-Sadr 
have indeed contributed to a reduction in violence in Iraq, but they 
came after Jaysh al-Mahdi (JAM) and the Special Groups (SG) took 
serious losses in combat with Iraqi and Coalition forces. Iraq and 
Coalition forces have placed intense pressure on JAM and the SG as they 
have targeted criminal elements and their mafia-like activity, and the 
leaders of the Iraqi Government have demonstrated great determination 
in combating militias across Iraq. Success by Iraqi and Coalition 
forces played a large role in Sadr's decision to lay down arms.
    Another important factor in Sadr's decisions is his need for 
popular support, and his desire to protect the legitimacy and 
reputation of his movement. Atmospherics in Basra and Sadr City 
indicate that most residents were tired of the bloodshed and of 
criminal activities by militias and desired a return to normalcy. 
Sadr's decisions to lay down arms in both cities were in part 
acknowledgments of this trend toward a popular rejection of violence (a 
trend that Iran, whose Qods Force funds, trains, and equips the militia 
Special Groups, also recognized).
    Our strategy for addressing JAM/SG violence acknowledges both of 
these factors. First, Coalition forces assist the Iraqi Government in 
maintaining its monopoly on the legitimate use of force by helping 
confront violent militia activity. ISF and Coalition operations 
continue to degrade the military capability of Sadr's militias. Second, 
we seek to assist the government of Iraq in its efforts to draw 
reconcilable elements of the Sadrist Trend into the political process. 
By providing for security and improving living conditions, Iraqi and 
Coalition efforts reinforce and encourage the Shi'a population's 
increasingly negative view of militias and their violence.
    Thus far, our strategy seems to be having the desired effect. Sadr 
continues to instruct his militias to lay down their arms, and he 
recently announced an initiative to redirect the majority of JAM to 
social services programs and peaceful resistance to the Coalition, 
while maintaining a smaller armed element. This decision highlights the 
pressure Sadr is under regarding militia activity. Also, many leaders 
of the Sadrist movement are leaning toward participation in the 
political process as a way to give voice to the legitimate concerns of 
their constituencies.
    Mr. Wittman. General Petraeus and Ambassador Crocker, What role 
does the United States play in the negotiations between Prime Minister 
Maliki and Muqtada al-Sadr? Should there be more oversight and 
involvement on the part of the United States? How does the State 
Department measure the effectiveness of their communications?
    General Petraeus. I respectfully defer to Ambassador Crocker and 
the Department of State to comment on what role, if any, the United 
States should play in negotiations between Government of Iraq leaders 
and Moqtada al-Sadr and on how they measure their effectiveness in 
communications. Ambassador Crocker and I meet regularly with Prime 
Minister Maliki and other Iraqi political leaders and representatives 
during the course of our duties here in Iraq. We register our views and 
concerns, and Prime Minister often consults with us on topics of 
interest to him. At the same time, Prime Minister Maliki is the leader 
of a sovereign government and, as we saw in a number of recent events, 
will make his own decisions, as he should.
    Mr. Wittman. Part of the National Strategy for Victory in Iraq 
called for an increased role in inter-agency assistance to the 
military. How satisfied are you with the inter-agency role/assistance 
and how do you measure the effectiveness? Can you share some success 
stories?
    Ambassador Crocker. In February 2007, the President announced the 
establishment of ten new State Department-led Provincial Reconstruction 
Teams (PRTs) as a civilian complement to the military ``surge.'' In 
April 2007, Multinational Corps-Iraq (MNC-I) requested another five 
teams to support the ``surge.'' By September 2007, all of these teams 
had begun operations. As of April 2008, there are 31 active PRTs, 
Provincial Support Teams (PSTs), and embedded PRTs (ePRTs) staffed by 
personnel from Department of State, the Department of Defense, the U.S. 
Agency for International Development, the Department Of Justice, and 
the U.S. Department of Agriculture. PRTs support the counterinsurgency 
strategy, build Iraqi governance and economic capacity throughout the 
country, and support our political engagement with provincial and 
municipal officials. We enjoy great cooperation from our interagency 
partners in this most successful interagency initiative.
    On April 3, General Petraeus and I requested through the National 
Security Council the assignment of experts from civilian agencies to 
MNF-I's Joint Inter-Agency Task Force or JIATF. Representatives from 
the State Department, USAID, the Department of Homeland Security and 
several Department of Defense Combat Support Agencies arrived during 
the summer and are now embedded as part of the MNF-I operational 
planning staff. In addition, the Department of the Treasury and the 
Federal Bureau of Investigation have designated specific personnel as 
liaisons to the JIATF. They are focused on strategic level planning 
using all elements of national power, not just the military, to address 
difficult problem sets through coordinated, inter-agency action against 
specific strategic threats.
    Mr. Wittman. It appears that our ``surge'' plan has worked or 
progressed quite well as seen by the improvements in the security 
environment, but this increase in security can also be attributed to 
Muqtada al-Sadr keeping his Shiite militia at bay during this period. 
As soon as he turned his militia loose, the environment became 
dangerous, and he has since pulled his militia back. Is there a plan 
for keeping al-Sadr at bay? How do you control him?
    Ambassador Crocker. Muqtada al-Sadr called for his militia to 
``freeze'' its operations because of both increasing operational losses 
from fighting Coalition forces and flagging support of the Iraqi 
people. As the threat from al-Qaeda and insurgents continued to 
diminish, Sadr's militia was increasingly perceived as an unnecessary 
element in Iraqi society: their extortion of money from shopkeepers, 
kidnappings for ransom, linkage to the assassinations of two southern 
governors and several police chiefs, and violence in the holy city of 
Karbala tarnished their reputation in the eyes of many Iraqis.
    Economic development and reconciliation are the best ways to 
prevent a resurgence of violent extremist groups like Sadr's militia. 
This is accomplished chiefly by building on recent security gains and 
eliminating the need for Sadr's militia to fill any security void. 
Better security also facilitates economic and political development, 
which strengthens the GOI and undermines support for extremists. 
Simultaneously, we will continue to offensively target extremists, 
including those in al-Sadr's organization, further marginalizing it.
    Mr. Wittman. What role does the United States play in the 
negotiations between Prime Minister Maliki and Muqtada al-Sadr? Should 
there be more oversight and involvement on the part of the United 
States? How does the State Department measure the effectiveness of 
their communications?
    Ambassador Crocker. The relationship between Moqtada al-Sadr and 
Prime Minister Nuri al-Maliki is complex. The Sadrist movement is a 
populist movement with deep roots in Iraq. In December 2005, Moqtada 
al-Sadr ostensibly transitioned this movement from armed resistance to 
Coalition forces to political engagement, and he captured 28 seats in 
the Iraqi legislative body, the Council of Representatives (CoR). 
Moqtada and his followers then supported Maliki's ascension to Prime 
Minister.
    In a March 30, 2008 public announcement, Muqtada al-Sadr called on 
the Jaysh al-Mahdi militia to lay down arms, ending a week of violence 
in Basrah and the Sadr City area of Baghdad, as the Government of Iraq 
sought to bring these areas under its control. Prime Minister Maliki 
declared April 1 that the operation against Shia militias in Southern 
Iraq was a success. A statement issued by the Prime Minister's office 
stated that the operation had achieved ``security, stability and 
success'' in Basrah.
    Against that background, the Government of Iraq, as a sovereign 
government, makes its own decisions about who to negotiate with, when, 
and under what terms. The U.S. government is prepared to provide advice 
and support to the Government of Iraq, but would involve itself in an 
internal Iraqi political matter only if invited to do so. We would not 
be in a position to measure the effectiveness of these communications.
                                 ______
                                 
                  QUESTIONS SUBMITTED BY MS. GIFFORDS

    Ms. Giffords. General Petraeus, I'd like to take a moment to 
consider the opportunity costs we're faced with under the current 15 
month deployment schedules. Many military leaders, including Admiral 
Mullen, have stressed the importance of getting back to at least a 1 to 
1 ratio of deployment time to dwell time, and of course even more dwell 
time would be better. It's important for the well-being of our troops, 
and it's central to their ability to regroup and train. Given that our 
current force levels in Iraq preclude a prompt return to a 1 to 1 
ratio, I'm very concerned that our troops don't have enough time to 
develop skills critical to fighting the broader war on terror, 
particularly in Afghanistan. In one section of the counterinsurgency 
manual you helped draft, you stress that successful counterinsurgency 
operations depend on a thorough understanding of the culture within 
which they are being conducted. This makes a great deal of sense to me. 
I would imagine that it is very difficult to gain the trust and 
cooperation of the population if you have no understanding of their 
culture, and that it's hard to defeat an insurgency with no 
comprehension of the cultural context that gave rise to it. But that 
understanding is not something that can be built overnight. As I 
understand from my constituents conducting cultural training down at 
Fort Huachuca in Arizona, developing true cross-cultural competence 
requires extensive training time--time that we don't have right now 
with 15 month deployments and just a year of dwell time. Unfortunately, 
Admiral Fallon came before this committee just one month ago and 
testified that the number of personnel trained in culture and language 
is seriously insufficient for the missions at hand. Can you elaborate 
on the importance of ``cross-cultural competence'' or cultural 
understanding in counterinsurgency operations?
    General Petraeus. Language and cultural training are indeed 
essential to the proper conduct of counterinsurgency operations. In 
Iraq, our day-to-day missions involve partnering with Iraqi 
counterparts, working with local govemment and religious leaders, and 
building trust with local citizens in the neighborhoods we patrol. All 
of these activities require communication and cultural awareness and 
sensitivity. Though deployment time/dwell time ratios remain a 
concern--a concern allayed slightly by the President's recent 
announcement of a return to 12-month tours--training time is not a 
significant inhibiting factor to the basic cultural and language 
training we provide to deploying troopers. The training we do conduct 
during reset cycles is very much focused on our current 
counterinsurgency missions and involves both culture and basic language 
training; this training is quickly reinforced and expanded as our 
troopers deploy and operate in Iraq. Between training, cultural 
immersion, and individuals' extensive experience from past deployments, 
our troopers in general operate with significant cross-cultural 
competence in Iraq. Language competency throughout our forces remains a 
concern, since the training required is extensive and is provided 
primarily to linguist specialists.
    Ms. Giffords. General Petraeus, I'd like to take a moment to 
consider the opportunity costs we're faced with under the current 15 
month deployment schedules. Many military leaders, including Admiral 
Mullen, have stressed the importance of getting back to at least a 1 to 
1 ratio of deployment time to dwell time, and of course even more dwell 
time would be better. It's important for the well-being of our troops, 
and it's central to their ability to regroup and train. Given that our 
current force levels in Iraq preclude a prompt return to a 1 to 1 
ratio, I'm very concerned that our troops don't have enough time to 
develop skills critical to fighting the broader war on terror, 
particularly in Afghanistan. In one section of the counterinsurgency 
manual you helped draft, you stress that successful counterinsurgency 
operations depend on a thorough understanding of the culture within 
which they are being conducted. This makes a great deal of sense to me. 
I would imagine that it is very difficult to gain the trust and 
cooperation of the population if you have no understanding of their 
culture, and that it's hard to defeat an insurgency with no 
comprehension of the cultural context that gave rise to it. But that 
understanding is not something that can be built overnight. As I 
understand from my constituents conducting cultural training down at 
Fort Huachuca in Arizona, developing true cross-cultural competence 
requires extensive training time--time that we don't have right now 
with 15 month deployments and just a year of dwell time. Unfortunately, 
Admiral Fallon came before this committee just one month ago and 
testified that the number of personnel trained in culture and language 
is seriously insufficient for the missions at hand. Do you believe that 
you have enough troops in the field today who posses cross-cultural 
competence or have been trained in culture and language?
    General Petraeus. The pre-deployment training we conduct involves 
both culture and basic language training; this training is quickly 
reinforced and expanded as our troopers deploy and operate in Iraq. 
Between training, cultural immersion, and individuals' extensive 
experience from past deployments, our troopers in general operate with 
significant cross-cultural competence in Iraq. Language competency 
throughout our forces remains a concern, since the training required is 
extensive and is provided primarily to linguist specialists.
    Ms. Giffords. General Petraeus, I'd like to take a moment to 
consider the opportunity costs we're faced with under the current 15 
month deployment schedules. Many military leaders, including Admiral 
Mullen, have stressed the importance of getting back to at least a 1 to 
1 ratio of deployment time to dwell time, and of course even more dwell 
time would be better. It's important for the well-being of our troops, 
and it's central to their ability to regroup and train. Given that our 
current force levels in Iraq preclude a prompt return to a 1 to 1 
ratio, I'm very concerned that our troops don't have enough time to 
develop skills critical to fighting the broader war on terror, 
particularly in Afghanistan. In one section of the counterinsurgency 
manual you helped draft, you stress that successful counterinsurgency 
operations depend on a thorough understanding of the culture within 
which they are being conducted. This makes a great deal sense to me. I 
would imagine that it is very difficult to gain the trust and 
cooperation of the population if you have no understanding of their 
culture, and that it's hard to defeat an insurgency with no 
comprehension of the cultural context that gave rise to it. But that 
understanding is not something that can be built overnight. As I 
understand from my constituents conducting cultural training down at 
Fort Huachuca in Arizona, developing true cross-cultural competence 
requires extensive training time--time that we don't have right now 
with 15 month deployments and just a year of dwell time. Unfortunately, 
Admiral Fallon came before this committee just one month ago and 
testified that the number of personnel trained in culture and language 
is seriously insufficient for the missions at hand. Would you agree 
that increased dwell time is required for our troops have enough time 
to train and develop critical skills such as cross-cultural competence?
    General Petraeus. Training time has not been a significant 
inhibiting factor to deploying units. Units arrive in theater well 
prepared for operations in Iraq. Indeed, I continue to believe that our 
current force is the best trained, best equipped force in America's 
history. Leaders at every level, many of whom are on their 2nd or 3rd 
combat deployments, are maximizing training time and using their 
experience from previous deployments to prepare and train their units 
well. The President's recent announcement of a return to 12-month tours 
should increase dwell time for our troopers, allowing them to conduct 
even more quality training and also to enjoy additional, well-deserved 
time at home station between deployments.
    Ms. Giffords. General Petraeus, I'd like to take a moment to 
consider the opportunity costs we're faced with under the current 15 
month deployment schedules. Many military leaders, including Admiral 
Mullen, have stressed the importance of getting back to at least a 1 to 
1 ratio of deployment time to dwell time, and of course even more dwell 
time would be better. It's important for the well-being of our troops, 
and it's central to their ability to regroup and train. Given that our 
current force levels in Iraq preclude a prompt return to a 1 to 1 
ratio, I'm very concerned that our troops don't have enough time to 
develop skills critical to fighting the broader war on terror, 
particularly in Afghanistan. In one section of the counterinsurgency 
manual you helped draft, you stress that successful counterinsurgency 
operations depend on a thorough understanding of the culture within 
which they are being conducted. This makes a great deal sense to me. I 
would imagine that it is very difficult to gain the trust and 
cooperation of the population if you have no understanding of their 
culture, and that it's hard to defeat an insurgency with no 
comprehension of the cultural context that gave rise to it. But that 
understanding is not something that can be built overnight. As I 
understand from my constituents conducting cultural training down at 
Fort Huachuca in Arizona, developing true cross-cultural competence 
requires extensive training time--time that we don't have right now 
with 15 month deployments and just a year of dwell time. Unfortunately, 
Admiral Fallon came before this committee just one month ago and 
testified that the number of personnel trained in culture and language 
is seriously insufficient for the missions at hand. Have you done 
anything to raise the wider issue of cultural training with your 
superiors in the chain of command and emphasize its importance?
    General Petraeus. The importance of basic culture and language 
training has been emphasized up and down the military's chain of 
command. Over the course of the last five years of operation in Iraq, 
we have worked to rapidly integrate lessons learned into training 
cycles for deploying units. Basic language and culture training is one 
of the important adjustments that we have made to pre-deployment 
training, and it has, in large part, had its intended effect. Our 
troopers now generally operate with significant cross-cultural 
competence in Iraq.
    Ms. Giffords. General Petraeus, I'd like to take a moment to 
consider the opportunity costs we're faced with under the current 15 
month deployment schedules. Many military leaders, including Admiral 
Mullen, have stressed the importance of getting back to at least a 1 to 
1 ratio of deployment time to dwell time, and of course even more dwell 
time would be better. It's important for the well-being of our troops, 
and it's central to their ability to regroup and train. Given that our 
current force levels in Iraq preclude a prompt return to a 1 to 1 
ratio, I'm very concerned that our troops don't have enough time to 
develop skills critical to fighting the broader war on terror, 
particularly in Afghanistan. In one section of the counterinsurgency 
manual you helped draft, you stress that successful counterinsurgency 
operations depend on a thorough understanding of the culture within 
which they are being conducted. This makes a great deal sense to me. I 
would imagine that it is very difficult to gain the trust and 
cooperation of the population if you have no understanding of their 
culture, and that it's hard to defeat an insurgency with no 
comprehension of the cultural context that gave rise to it. But that 
understanding is not something that can be built overnight. As I 
understand from my constituents conducting cultural training down at 
Fort Huachuca in Arizona, developing true cross-cultural competence 
requires extensive training time--time that we don't have right now 
with 15 month deployments and just a year of dwell time. Unfortunately, 
Admiral Fallon came before this committee just one month ago and 
testified that the number of personnel trained in culture and language 
is seriously insufficient for the missions at hand. What can we in 
Congress do to bolster cultural training efforts in the Army and across 
the services?
    General Petraeus. Before addressing cultural training, I would like 
to note that Human Terrain Teams have been valuable to our forces in 
Iraq, and Congressional support for this program is important. We are 
in need of more of these teams, as the experts serving on Human Terrain 
Teams provide important cultural insights to our combat units and can 
help to improve continuity through unit transitions. With regard to 
cultural training, one of the most important actions Congress can take 
is to keep resources placed against education, even given the pressures 
and constraints which come into play during wartime. Efforts worthy of 
support include: initiatives to enhance cultural immersion 
opportunities for Reserve Officer Training Corps and West Point cadets; 
programs to provide opportunities for graduate education for our 
officer corps; and career management processes that incentivize and 
provide opportunities for joint and interagency assignments and 
education. The more we study and work outside of our intellectual 
comfort zones, the better we can leverage cultural understanding to 
succeed in today's complex operating environments.
                                 ______
                                 
                   QUESTIONS SUBMITTED BY MS. TSONGAS

    Ms. Tsongas. The President's most recent orders were to carry out 
the surge so that the U.S. military could help reduce the violence in 
Iraq and bring greater stability to the country. This stability would 
then create an opening for the country's political leadership to 
achieve a similar stability in Iraq's governance. Military 
achievements, however, have not translated to this stated political 
goal. The urgency the current administration felt to achieve these 
military goals has not been shared by the Iraqi government of Mr. 
Maliki, over whom our military leaders have no control. It is my belief 
that postponing the drawdown of our troops until ``conditions permit,'' 
as you stated yesterday, only highlights the military's incapacity to 
drive the political side of the equation, and hampers our country's 
ability to force the Iraqi governments' long overdue political 
resolution. You have stated your dissatisfaction with the political 
progress made by the Iraqi political elites, in spite of our military's 
best efforts. On this we both agree. I would endorse a timetable as a 
means to drive political reconciliation. General Petraeus, as a 
military man with tremendous experience, a demonstrated track record 
and the extraordinary power of the United States backing you up, what 
are the tactics you would employ to encourage the Iraqis to make 
fundamental movements towards political stability?
    General Petraeus. There is no purely military or purely political 
solution in Iraq, and we are using a variety of approaches to bring 
about political stability. All four lines of operation--security, 
economic, diplomatic, and political--are mutually reinforcing and thus 
must be pursued to achieve a long-term solution in Iraq. Though the 
pursuit of political reconciliation and good governance along the 
political line of operation is the main effort, success in this area 
depends on security conditions that enable and foster compromise. 
Enduring domestic political progress will also rest on supporting 
economic and diplomatic developments. I believe that political 
compromise among Iraqi political leaders is a necessary condition for a 
political solution. Iraq leaders have put themselves under enormous 
personal pressure and are also under the collective pressure of various 
political elements in Iraq to create stability and long-term solutions 
for Iraq. They have already worked together and compromised on a number 
of difficult issues in order to pass important pieces of legislation 
earlier this year--among them, a budget law, a de-Ba'athification 
reform law, a provincial powers law, and an amnesty law. They recognize 
that in order to succeed in a political process, they will need to 
produce results, and producing results requires compromise. With regard 
to expectations about the pace of progress, it is important to 
recognize that Iraq's political leaders are still struggling with 
fundamental questions such as the degree of devolution to the provinces 
of various authorities and powers in Iraq, an issue similar to our own 
debate over state's rights at the birth of the United States. Iraq's 
political leaders have already begun to make progress in these areas, 
and they are continuing to move forward on issues such as the 
provincial elections scheduled for later this year. Supporting 
political solutions in Iraq is not purely a matter of convincing Iraqi 
leaders of the importance of compromise. It is also a matter of helping 
Iraqi leaders to set conditions that enable progress. Our leverage lies 
in our robust engagement, ability to work with the government of Iraq, 
and willingness to help its leaders at local as well as national level 
make and implement the hard decisions that are in the best interests of 
all the Iraqi people.
    Ms. Tsongas. Ambassador Crocker, as someone who has spent decades 
developing relationships with diplomats throughout the Middle East, 
what are the tactics you would employ to encourage the Iraqis to make 
fundamental movements towards political stability?
    Ambassador Crocker. We encourage and support Iraqi political 
leaders across the board to accelerate actions necessary to promote 
political stability and national reconciliation--by passing legislation 
in key areas, broadening participation by all of Iraq's communities in 
the political process, and improving the delivery of basic services. We 
also encourage Iraq to work with its neighbors and the broader 
international community, including through organizations such as the 
United Nations Assistance Mission for Iraq. International agreements, 
like the International Compact with Iraq, elicit Iraqi progress in key 
reconciliation-related areas such as economic self-reliance, good 
governance, rule of law, and civil society. It is important that the 
Iraqi government and people have a strong sense of ownership over the 
projects and processes they embark on; however, the United States and 
theinternational community can contribute to helping strengthen Iraq's 
institutions, providing technical assistance, and encouraging dialogue 
both on the national and provincial levels.
                                 ______
                                 
                    QUESTION SUBMITTED BY MR. HAYES

    Mr. Hayes. Several Members of Congress have noted that the Iraqi 
Council of Representatives and some Iraqi leaders generally do not 
support a permanent U.S. military presence in Iraq. It seems to me that 
after the provincial elections later this year, some Iraqi officials 
may try to develop or institute a drawdown schedule. After provincial 
elections, is an Iraqi-provided timeline for U.S. withdrawal a 
reasonable expectation?
    General Petraeus. The majority of Iraqis see the benefit of the 
continued presence of Coalition forces in the near-term, even as they 
oppose a long-term presence or permanent US basing. Provincial 
elections will affect local and governorate leadership and thus would 
likely not lead to a change in national policy. Iraq's national leaders 
continue to recognize the much-needed military support, in boots on the 
ground and in key combat enablers, provided by Coalition forces as key 
to allowing progress in other areas as Iraqi forces continue to 
develop.
                                 ______
                                 
                   QUESTION SUBMITTED BY MR. MCINTYRE

    Mr. McIntyre. So you are saying, within next week you can provide 
us an assessment as to where we stand specifically on the 18 benchmarks 
that the Iraqi Government agreed to meet in working with the U.S. 
Government to make sure that we are accomplishing the political, 
economic progress that we want to see in the country, as well as the 
military progress. Is that correct?
    Ambassador Crocker. I provided sensitive information by letter to 
Representative McIntyre on May 9, 2008.

                                  <all>

</pre></body></html>
